<html>
<title> - DENYING TERRORISTS ENTRY TO THE UNITED STATES: EXAMINING VISA SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








 DENYING TERRORISTS ENTRY TO THE UNITED STATES: EXAMINING VISA SECURITY

=======================================================================

                                HEARING

                               before the

                         TASK FORCE ON DENYING
                            TERRORISTS ENTRY
                          TO THE UNITED STATES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2017

                               __________

                           Serial No. 115-15

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-293 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                              
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

      TASK FORCE ON DENYING TERRORISTS ENTRY TO THE UNITED STATES

                  Mike Gallagher, Wisconsin, Chairman
Clay Higgins, Louisiana              Bonnie Watson Coleman, New Jersey
John H. Rutherford, Florida          Sheila Jackson Lee, Texas
Thomas A. Garrett, Jr., Virginia     Nanette Diaz Barragan, California
Brian K. Fitzpatrick, Pennsylvania   Bennie G. Thompson, Mississippi 
John Katko, New York (ex officio)        (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Gallagher, a Representative in Congress From 
  the State of Wisconsin, and Chairman, Task Force on Denying 
  Terrorists Entry to the United States:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Task Force on 
  Denying Terrorists Entry to the United States..................     4
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Michael Dougherty, Acting Assistant Secretary, Border, 
  Immigration, and Trade Policy Office of Policy, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    14
Mr. John Wagner, Deputy Executive Assistant Commissioner, U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    10
  Joint Prepared Statement.......................................    14
Mr. Clark E. Settles, Assistant Director, National Security 
  Investigations Division, Immigration and Customs Enforcement, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    12
  Joint Prepared Statement.......................................    14
Mr. Edward J. Ramotowski, Deputy Assistant Secretary, Office of 
  Visa Services, U.S. Department of State:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Ms. Rebecca Gambler, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28

                                Appendix

Questions From Chairman Mike Gallagher for the Department of 
  Homeland Security..............................................    53
Questions From Chairman Mike Gallagher for Edward Ramotowski.....    58
 
 DENYING TERRORISTS ENTRY TO THE UNITED STATES: EXAMINING VISA SECURITY

                              ----------                              


                         Wednesday, May 3, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Task Force on Denying Terrorists 
                                Entry to the United States,
                                                    Washington, DC.
    The task force met, pursuant to notice, at 2:30 p.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Mike Gallagher 
[Chairman of the task force] presiding.
    Present: Representatives Gallagher, Higgins, Rutherford, 
Garrett, Fitzpatrick, Katko, McCaul (ex officio), Watson 
Coleman, Jackson Lee, Barragan, and Keating.
    Mr. Gallagher. The Committee on Homeland Security's Task 
Force on Denying Terrorists Entry into the United States will 
come to order. The task force is meeting today to examine the 
security of the visa process, and the Visa Waiver Program. I 
will now recognize myself for an opening statement.
    I want to start by welcoming back our expert witnesses to 
the Capitol, and thank him for being here doing double-duty for 
joining us yesterday for a Classified hearing. I look forward 
to following up on some of the broader themes of the briefing 
in order to inform the American people of the security of the 
visa process and the Visa Waiver Program.
    I also want to thank Chairman McCaul and Ranking Member 
Thompson for prioritizing this task force and its mission. Last 
Congress, this committee's task force on combating terrorist 
and foreign fighter travel was not only successful in producing 
legislative change, but also eye-opening in what it revealed. 
The work done by Members and staff on both sides of aisle under 
Chairman Katko's leadership raised awareness about gaps in 
screening and information sharing, both at home and with our 
foreign partners, which ultimately led to positive reforms for 
protecting the homeland against terrorists and foreign 
fighters.
    This, of course, includes the Visa Waiver Program 
Improvement and Terrorist Travel Prevention Act that enacted 
major VWP reforms into law in 2015. I hope that this task 
force, Task Force on Denying Terrorists Entry into the United 
States, will be as successful in its investigation and in its 
final recommendations.
    I also look forward to working with Ms. Watson Coleman from 
New Jersey, and all the Members on both sides to ensure that it 
is a success, and I thank you for the time that you spent, and 
I really am looking forward to this.
    This is a critical time for our Nation's security. The 
previous task force rightly focused on the tens of thousands of 
jihadist fighters traveling from the West to join the fight on 
the ground in Iraq and Syria. Now, however, we see that number 
dropping as these fighters seek to expand their actions beyond 
Iraq and Syria. While coalition forces continue to advance and 
squeeze ISIS territory, the threat against the West continues 
to rise as the fighters leave the so-called caliphate.
    As FBI Director Comey said this past September, ``Through 
the fingers of that crush are going to come hundreds of very, 
very dangerous people. There will be a terrorist diaspora 
sometime in the next 2 to 5 years like we have never seen 
before.'' Those chilling words should serve as a wake-up call.
    Just last week, it was reported that two British nationals 
and a U.S. citizen were detained by Turkish border police after 
spending over 2 years in ISIS territory. With hundreds of 
American fighters, and thousands of European fighters seeking 
to return to their home countries, armed with lawful passports, 
terrorist training, and jihadist connections, we must be able 
to prevent them from gaining entry into the United States by 
abusing our immigration system.
    ISIS has already planned, conducted, or inspired more than 
180 plots against the West, including the 2015 attacks in Paris 
and the 2016 attacks in Brussels, Nice, and Berlin. The 
majority of these attackers were European citizens with valid 
passports, so it is easy to imagine any one of them gaining 
access to the country through a valid visa or through the Visa 
Waiver Program.
    As Secretary Kelly recently said, the United States is the 
prime terrorist target, especially since so many of these 
fighters are citizens of VWP countries. But that is why we are 
here today, to ensure our defenses are strong and to protect 
the homeland as it continues to be targeted.
    While there are numerous benefits to our country that stem 
from our welcoming immigration system, like tourism, trade, and 
business, we should never cease to examine our processes 
through the lens of a terrorist in search of potential gaps. We 
must always strive to stay one step ahead.
    That is what we learned in the wake of September 11, where 
all of the attackers entered the United States through legal 
means, mainly through lawful tourist visas. This, of course, 
prompted an overhaul of our immigration and transportation 
security systems, as well as the creation of our Department of 
Homeland Security.
    But our work is not yet done. We still have a lot to learn 
and a lot to adapt to. Despite the reforms undertaken in the 
wake of 9/11, there are still gaps and weaknesses in our 
system. One of the attackers who killed 14 people in San 
Bernardino in 2015 legally entered the country on a K-1 fiance 
visa, raising questions about the level of scrutiny given to 
visa applications.
    There are also remaining gaps in vetting and screening a 
VWP applicant, and in information sharing with other countries, 
which are both vital in the fight against a terrorist diaspora.
    I look forward to hearing from our expert witnesses on what 
the Department of Homeland Security and the Department of State 
are doing to ensure that visa and VWP applicants are receiving 
sufficient screening and vetting before they are allowed to 
enter into this country. I thank the witnesses again for being 
here and for their service, as well as the many men and women 
who serve our Nation, both at DHS and the State Department.
    With that, the Chair now recognizes the Ranking Member of 
the task force, the gentlelady from New Jersey, Ms. Watson 
Coleman, for any statement she may have.
    [The statement of Chairman Gallagher follows:]
                  Statement of Chairman Mike Gallagher
                              May 3, 2017
    I want to start by welcoming back our expert witnesses to the 
Capitol and thank them for being here today, as well as for the 
Classified briefing we had yesterday. I look forward to following up on 
some of the broader themes of the briefing in order to inform the 
American people of the security of the visa process and the Visa Waiver 
Program. I also want to thank Chairman McCaul and Ranking Member 
Thompson for prioritizing this task force and its mission.
    Last Congress, this Committee's Task Force on Combating Terrorist 
and Foreign Fighter Travel was not only successful in producing 
legislative change, but also eye-opening in what it revealed. The work 
done by Members and staff on both sides of the aisle, under Chairman 
Katko's leadership, raised awareness about gaps in screening and 
information sharing--both at home and with our foreign partners--which 
ultimately led to positive reforms for protecting the homeland against 
terrorists and foreign fighters. This of course includes the Visa 
Waiver Program Improvement and Terrorist Travel Prevention Act that 
enacted major VWP reforms into law in 2015. I hope that this Task Force 
on Denying Terrorists Entry into the United States will be as 
successful in its investigation and final recommendations. And I look 
forward to working with Ms. Watson Coleman and all the Members on both 
sides to ensure that it is a success.
    This is a critical time for our Nation's security. The previous 
task force rightly focused on the tens of thousands of jihadist 
fighters traveling from the West to join the fight on the ground in 
Iraq and Syria. Now, however, we see that number dropping as those 
fighters seek to expand their actions beyond Iraq and Syria. And while 
coalition forces continue to advance and squeeze ISIS territory, the 
threat against the West continues to rise as the fighters leave the so-
called caliphate. As FBI Director Comey said this past September, 
``through the fingers of that crush are going to come hundreds of very, 
very dangerous people. There will be a terrorist diaspora some time in 
the next 2 to 5 years like we've never seen before.''
    Those chilling words should serve as a wake-up call. Just last 
week, it was reported that two British nationals and a U.S. citizen 
were detained by Turkish border police after spending over 2 years in 
ISIS territory. With hundreds of American fighters and thousands of 
European fighters--armed with lawful passports, terrorist training, and 
jihadist connections--seeking to return to their home countries, we 
must be able to prevent them from gaining entry into the United States 
by abusing our immigration system. ISIS has already planned, conducted, 
or inspired more than 180 plots against the West, including the 2015 
attacks in Paris, and the 2016 attacks in Brussels, Nice, and Berlin. 
The majority of these attackers were European citizens with valid 
passports, so it is easy to imagine any one of them gaining access to 
this country through a valid visa or through the Visa Waiver Program. 
And as Secretary Kelly recently said, the U.S. is ``the prime terrorist 
target,'' especially since so many of these fighters are citizens of 
VWP countries. But that is why we are here today--to ensure that our 
defenses are strong and to protect the homeland as it continues to be 
targeted.
    While there are numerous benefits to our country that stem from our 
welcoming immigration system--like tourism, trade, and business--we 
should never cease to examine our processes through the lens of a 
terrorist in search potential gaps. We must always strive to stay one 
step ahead. That is what we learned in the wake of September 11, where 
all of the attackers entered the United States through legal means, 
mainly through lawful tourist visas. This of course prompted an 
overhaul of our immigration and transportation security systems, as 
well as the creation of the Department of Homeland Security. But our 
work is not done. We still have a lot to learn and adapt to.
    Despite the reforms undertaken in the wake of 9/11, there are still 
gaps and weaknesses in our system. One of the attackers who killed 14 
people in San Bernardino in 2015 legally entered into this country on a 
K-1 ``fiance'' visa--raising questions on the level of scrutiny given 
to visa applications. There are also remaining gaps in vetting and 
screening of VWP applicants, and in information sharing with other 
countries, which are both vital in the fight against the terrorist 
diaspora.
    I look forward to hearing from our expert witnesses on what the 
Department of Homeland Security and the Department of State are doing 
to ensure that visa and VWP applicants are receiving sufficient 
screening and vetting before they are allowed to enter into this 
country. I thank the witnesses for being here and for their service--as 
well as the many men and women who serve our Nation at both DHS and the 
State Department.

    Ms. Watson Coleman. Thank you, Mr. Chairman, and I am 
delighted to be here and share this very important task with 
you. I look forward to working with you.
    I am pleased to join in holding today's hearings on denying 
terrorists entry into the United States. I welcome the 
opportunity to work with you and our colleagues on the task 
force to examine how the Federal Government can continue to 
strengthen our Nation's security, and do so in a way that 
upholds our American values.
    Since the terrorist attacks of September 11, 2001, Congress 
has established the Department of Homeland Security, and 
directed the implementation of significant and wide-ranging new 
programs and policies to help prevent terrorist travel to this 
country.
    For example, U.S. Immigration and Customs Enforcement has 
deployed visa security units to our embassies and consulates 
overseas, supporting the State Department in vetting visa 
applicants. U.S. Customs and Border Protection now utilizes the 
Electronic System for Travel Authorization, ESTA, to screen 
Visa Waiver Program travelers before they are permitted to 
board a plane to the United States.
    These agencies now also conduct recurrent vetting of all 
visa and ESTA holders to check against any new derogatory 
information. These are just a few examples of the security 
initiatives that have been implemented in the aftermath of 9/11 
on an on-going basis as other potential vulnerabilities have 
been identified.
    Of course, more work remains to be done to ensure we 
continue to stay ahead of those who might seek to do us harm. 
That work must be done on a bipartisan basis in the interest of 
all Americans, and in keeping with our principles as a Nation 
of immigrants.
    Using rhetoric that divides us and alienates our foreign 
partners is counterproductive to the security of the United 
States. Banning certain groups of people from entering this 
country based on their faith, whether explicitly or implicitly, 
is unconstitutional.
    Playing on people's fears and prejudices for political gain 
is just downright un-American. As a country, we can do better, 
and I hope that on this task force, we will do better. America 
is always at its strongest when we stand together in support of 
our common good and our shared values.
    I appreciated hearing from our Government witnesses 
yesterday in a Classified setting about the good work the 
Departments of Homeland Security and State are doing to further 
enhance our security. I hope to hear from these witnesses today 
about what more can be done to identify and thwart attempted 
terrorist travel on an individualized basis and how Congress 
can support their efforts.
    I also hope to hear from our Government Accountability 
Office witness about what their work on these visa issues tells 
us about the path that we must go forward. I look forward to a 
very productive hearing today, and to working alongside my 
colleagues on the task force and with you, Mr. Chairman, as we 
go forward. Again, I thank you for holding today's hearing, and 
I thank the witnesses for joining us, and I yield back.
    Mr. Gallagher. The Chair now recognizes the Chairman of the 
full committee, the gentleman from Texas, Mr. McCaul, for any 
statement he may have.
    Mr. McCaul. Thank you, Chairman Gallagher and Ranking 
Member Watson Coleman. In June 2000, three of the 9/11 
hijackers flew from European cities to Newark International 
Airport, and were admitted into the United States. Their names 
were Mohamed Atta, Marwan al-Shehhi, and Ziad Jarrah. Sadly, we 
know the rest of the story.
    In the years following the 9/11 attacks, the U.S. 
Government went to great lengths to identify gaps in our 
vetting systems, and in how our agencies share intelligence. 
The Department of Homeland Security was created by the Bush 
administration and Congress to help protect America from 
terrorists by connecting the dots.
    Now we face a new and growing threat to the homeland. In 
his speech on April 18, Secretary Kelly described us as a 
Nation under attack facing the highest terror threat level in 
years. Due to our brave servicemen and women, ISIS and al-Qaeda 
have incurred great losses in Syria and Iraq. Yet as territory 
under their control shrinks, we are seeing an exodus of foreign 
fighters returning to their homelands, 10,000 of which are in 
Europe.
    Our committee is taking a serious look at foreign fighters. 
Last Congress, we pulled together a bipartisan task force to 
examine the threat posed to the United States by foreign 
fighters, especially those traveling in and out of Europe. 
Through this extensive 6-month review, the task force produced 
more than 50 actionable recommendations to safeguard the 
homeland, and this committee and the House passed legislation 
to address those recommendations.
    Those which became law include the Foreign Fighter Travel 
Review Act, which requires the President to review all 
Americans who traveled to Iraq and Syria to join a foreign 
terrorist organization, and the National Strategy to Combat 
Terrorist Travel Act, which requires the administration to 
develop a substantive strategy to combat the threat posed by 
extremists and prevent them from entering our country 
undetected.
    Significantly, the Visa Waiver Program Improvement and 
Terrorist Travel Prevention Act of 2015 ramped up the security 
of the Visa Waiver Program by improved intelligence information 
sharing through HSPD-6 agreements and keep terrorists from 
entering the United States undetected. It also includes major 
provisions that will make it harder for terror suspects to 
cross borders, including enhanced counterterrorism screening of 
travelers and measures to crack down on passport fraud.
    This new task force will pick up where the last one left 
off. Addressing the readiness of the homeland in light of the 
foreign fighter exodus, I was pleased to name Congressman Mike 
Gallagher of Wisconsin as the chair of this initiative. As a 
former combat veteran and Middle East issue expert, I know he 
will tackle these urgent issues with seriousness and 
dedication. Together with the other seven members of this 
bipartisan task force, I know that this will be equally 
productive and essential for America's security.
    I look forward to hearing from our witnesses on the 
important work performed by the Department and the State 
Department to prevent terrorists from gaining access to our 
homeland. With that, Mr. Chairman, I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              May 3, 2017
    In June 2000, three of the 9/11 hijackers flew from European cities 
to Newark International Airport and were admitted into the United 
States. Their names were Mohamed Atta, Marwan al Shehhi, and Ziad 
Jarrah. Sadly, we know the rest of the story.
    In the years following the 9/11 attacks, the United States 
Government went to great lengths to identify gaps in our vetting 
systems and in how our agencies share intelligence. The Department of 
Homeland Security was created by the Bush administration and Congress 
to help protect America from terrorists by ``connecting the dots.''
    Now we face a new and growing threat to the homeland. In his speech 
on April 18, Secretary Kelly described us as a ``Nation under attack'' 
facing the highest terror threat level in years. Due to our brave 
service men and women, ISIS and al-Qaeda have incurred great losses in 
Syria and Iraq. Yet as the territory under their control shrinks, we 
are seeing an exodus of foreign fighters returning to their homelands, 
10,000 of which are in Europe.
    Our committee has taken a serious look at foreign fighters. Last 
Congress, we pulled together a bipartisan task force to examine the 
threat posed to the United States by foreign fighters--especially those 
traveling in and out of Europe.
    Through this extensive, 6-month review, the task force produced 
more than 50 actionable recommendations to safeguard the homeland, and 
this committee and the House passed legislation to address those 
recommendations. Those which became law include the Foreign Fighter 
Travel Review Act, which requires the President to review all Americans 
who have traveled to Iraq and Syria to join a foreign terrorist 
organization, and the National Strategy to Combat Terrorist Travel Act, 
which requires the administration to develop a substantive strategy to 
combat the threat posed by extremists and prevent them from entering 
our country undetected.
    Significantly, the Visa Waiver Program Improvement and Terrorist 
Travel Prevention Act of 2015 ramped up the security of the Visa Waiver 
Program by improved intelligence information sharing through HSPD-6 
agreements and keeps terrorists from entering the United States 
undetected. It also includes major provisions that will make it harder 
for terror suspects to cross borders, including enhanced 
counterterrorism screening of travelers and measures to crack down on 
passport fraud.
    This new task force will pick up where the last one left off: 
Addressing the readiness of the homeland in light of the foreign 
fighter exodus. I was excited to name Congressman Mike Gallagher of 
Wisconsin as the Chair of this initiative. As a former combat veteran 
and Middle East issue expert, I know he will tackle these urgent issues 
with seriousness and dedication. Together with the other 7 members of 
this bipartisan task force, I know this will be equally productive and 
essential for America's security.
    I look forward to hearing from our witnesses today on the important 
work performed by DHS and the State Department to prevent terrorists 
from gaining access to our homeland.
    I yield back the balance of my time.

    Mr. Gallagher. Thank you, Mr. Chairman. Other Members are 
reminded that opening statements may be submitted for the 
record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                              May 3, 2017
    Chairman McCaul and Ranking Member Thompson, thank you for your 
leadership in convening the Task Force on Denying Terrorist Entry into 
the United States.
    On this the inaugural hearing of the task force, I recognize and 
thank Chairman Mike Gallagher and Ranking Member Bonnie Watson Coleman 
for leading this task force as we consider the important question of 
``Denying Terrorists Entry to the United States: Examining Visa 
Security.''
    I welcome today's witnesses: John Wagner, Deputy Executive 
Assistant Commissioner, Office of Field Operations, U.S. Customs and 
Border Protection, Department of Homeland Security; Clark E. Settles, 
Assistant Director, National Security Investigation Division, U.S. 
Immigration and Customs Enforcement, Department of Homeland Security; 
and Michael Dougherty, Acting Assistant Secretary for Border, 
Immigration, and Trade, Office of Policy, Department of Homeland 
Security.
    In February 2017, Chairman McCaul with the consultation with 
Ranking Member Benny Thompson announced the formation of this task 
force.
    The purpose of this task force is to examine all pathways by which 
extremists might infiltrate the homeland and will seek to identify gaps 
in U.S. Government information-sharing and vetting procedures.
    As for those of us who are senior Members of this committee, we 
understand how important it is to protect the security of our homeland 
from those who would do it harm.
    The route that the terrorist used on September 11, 2001 was 
commercial aircraft that they turned into improvised explosives that 
killed over 3,000 people, and caused life-changing injuries to hundreds 
of others.
    If they could have killed more innocent people they would have, and 
we know they would have sought to do so.
    The Committee on Homeland Security is committed to ensure that no 
terrorists will have the opportunity to do such great harm to neither 
the United States nor its people ever again.
    As a former chair of the Homeland Security's Subcommittee on 
Transportation Security and Ranking Member of this subcommittee my 
commitment to air travel security and protecting the homeland from 
terrorist attacks remains unwavering.
    The Department of Homeland Security and the Department of State 
share the critical responsibility of identifying and preventing foreign 
fighters who may seek to enter the United States.
    Since September 11, 2001, it has been a priority of this Nation to 
prevent terrorists or those who would do Americans harm from boarding 
flights whether they are domestic or international.
    For this reason, in the last Congress I introduced H.R. 48, the 
``No Fly for Foreign Fighters Act,'' which requires the director of the 
Terrorist Screening Center to review the Terrorist Screening Database 
and the terrorist watch list to determine if an individual boarding a 
U.S.-bound or domestic flight poses a terrorist threat or is suspected 
of being a member of a foreign terrorist organization.
    H.R. 48 ensures that the Terrorist Screening Database is kept up-
to-date and that the watch list is as effective as possible in 
preventing travel by those who would do harm to our Nation or its 
people.
    The No Fly for Foreign Fighters Act also directs that the DHS 
report findings to the House Committee on Homeland Security and the 
Senate Committee on Homeland Security and Governmental Affairs.
    The visa waiver program nations are long-time allies, which 
include:

  <bullet> Australia, Belgium, Denmark, Finland, France, Germany, 
        Greece, Iceland, Ireland, Italy, Japan, Luxembourg, 
        Netherlands, Norway, South Korea, Spain, Sweden, United 
        Kingdom.

    The visa waiver program nation participants also provide vital 
intelligence on terrorist threats and those who may work against the 
safety and security of our people.
    However, I want to point out several important facts that Task 
Force should consider regarding visa waiver program nations as we 
consider this issue:
  <bullet> Several nations who are listed as part of the visa waiver 
        program also have serious social and cultural tensions among 
        minority populations that have erupted into violence;
  <bullet> Travelers from Europe and elsewhere around the globe are no 
        longer traveling along predictable routes to reach the battle 
        fields of Syria and Iraq; and
  <bullet> The exact number and identities of those who have traveled 
        to the region controlled by ISIS/ISIL to engage in the conflict 
        is still unknown.
    An example of the tension that exists just underneath the surface 
in the nation of France came to light in 2005.
    Two youth, one Malian and other Tunisian, were electrocuted as they 
fled police.
    Following the tragedy the nation of France experienced 3 weeks of 
riots that engulfed 274 towns throughout the nation.
    The rioters were mostly unemployed minority youth from destitute 
suburban housing projects. At the end of the 3 weeks of riots:
  <bullet> 9,000 cars were torched;
  <bullet> Dozens of buildings were destroyed;
  <bullet> 2,900 rioters were arrested; and
  <bullet> 129 police and firefighters were injured.
    In January 2006, another riot occurred this time lead by French 
youth opposed to a new law that they believed would decrease job 
security, cause lower wages, and weaken worker rights.
    The riots were extensive and violent as a result the French 
government revoked that law.
    There was no similar redress of the issues that caused the 3 weeks 
of riots by immigrant youth in October 2005.
    The problems that are the underlying cause of the riots in 2005 are 
systemic and still present.
    The issues before the Task Force transcend geography.
    Where there is poverty and systemic disparity in living conditions 
and insurmountable forces to resist upward mobility by poor immigrant 
communities of color therein lays the fundamental indisputable threat 
to the United States' security.
    We cannot solve these problems for other nations alone these 
nations must be committed to working with groups within their 
population to remove barriers that cause tensions.
     The United States continues to struggle with its own scars from 
its battles to bring justice, equality, and opportunity to persons of 
color, women, and poor persons who were hindered by segregation as well 
as social and economic barriers.
    Our work as Members of this committee and this task force should 
focus on making sure the Terrorist Screening Center Database and the 
watch list used by DHS receives the full benefit of our relationships 
with the intelligence agencies of the visa waiver program countries.
    I am a firm supporter of the visa waiver program and believe that 
it provides economic, cultural, and social exchanges that enrich the 
Nation in many ways.
    I thank the Members of the task force who will work toward a better 
understanding of the threats posed by terrorist and how this committee 
and Nation may better prepare to repel them.
    I am looking forward to hearing what our witnesses have to say and 
I am sure they have important testimony.

    Mr. Gallagher. We are honored to be joined by a very 
distinguished panel of witnesses: Mr. Michael Dougherty, acting 
assistant secretary for border, immigration, and trade at the 
Office of Policy at the Department of Homeland Security; Mr. 
John Wagner, deputy executive assistant commissioner at U.S. 
Customs and Border Protection at the Department of Homeland 
Security; Mr. Clark Settles, assistant director for the 
National Security Investigation Division at Immigration and 
Customs Enforcement at the Department of Homeland Security; Mr. 
Edward Ramotowski, deputy assistant secretary for visa services 
at the Department of State; and Ms. Rebecca Gambler, director 
of homeland security and justice issues at the Government 
Accountability Office. I thank you for being here today. The 
witnesses' full written statements will appear in the record.
    The Chair now recognizes Mr. Dougherty for 5 minutes for an 
opening statement.

  STATEMENT OF MICHAEL DOUGHERTY, ACTING ASSISTANT SECRETARY, 
 BORDER, IMMIGRATION, AND TRADE POLICY OFFICE OF POLICY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Dougherty. Chairman Gallagher, Ranking Member Watson 
Coleman----
    Mr. Gallagher. Just turn on your mic there. I did that five 
times in my first week here.
    Mr. Dougherty. Thanks.
    Mr. Gallagher. Don't worry about it.
    Mr. Dougherty. Chairman Gallagher, Ranking Member Watson 
Coleman, and distinguished committee Members, thank you for the 
opportunity to appear before you today with my DHS State 
Department and GAO colleagues.
    The Visa Waiver Program, or the VWP, was created by 
Congress in 1986 to allow citizens of qualifying countries to 
enter the United States for business or pleasure without having 
to secure a visa, but only after necessary security clearances 
were performed.
    In addition to promoting and easing travel to the United 
States, the VWP relieved the Department of State from having to 
interview low-risk applicants from program countries at our 
consulates overseas. The VWP has evolved since that time with 
Congress having legislatively modified it five different times.
    Today, the program can properly be viewed not just as a 
means of easing travel to the United States, but as a means to 
improve our security posture, modernizing screening and vetting 
processes, increasing information sharing within our Government 
and with foreign partners.
    As the committee is aware, DHS Secretary Kelly has 
emphasized that blocking terrorists ensures criminals from 
entering the United States is a top priority of our Department, 
and we are committed to working closely with Congress and our 
interagency and foreign partners to protect our homeland.
    Currently, 38 countries are approved to participate in the 
VWP, which allows their nationals to travel to the United 
States for up to 90 days. Travelers are required to complete an 
on-line application in advance of travel. That is known as the 
Electronic System for Travel Authorization, or ESTA.
    Looking at the ESTA application, CBP conducts automatic 
vetting to assess whether the individual is eligible to travel 
under the VWP, or could pose a risk to the United States or to 
the public at large.
    To participate in the VWP, countries must share information 
on terrorists and serious criminals, timely report lost and 
stolen passports, have robust border and travel document 
security practices, and engage in effective traveler and 
migrant screening.
    Looking at the criteria for lost and stolen passports, for 
example, VWP countries have to report that loss or theft no 
later than 24 hours after they become aware of it, and VWP 
countries have contributed over 50 million such records to 
INTERPOL, which accounts for 70 percent of the INTERPOL 
holdings.
    Rigorous National-level assessments of program countries 
are conducted by the Department of Homeland Security to ensure 
that they meet the security standards required for continued 
participation in the program. The bottom line is that to join 
or to continue in the VWP, a country cannot represent a threat 
to the United States and must be working as a partner to 
prevent terrorist travel.
    The committee has contributed to the strengthening of the 
Visa Waiver Program through its leadership in developing the 
VWP Improvement and Terrorist Travel Prevention Act of 2015. I 
would like to take a moment to highlight several important 
changes that have resulted from DHS's implementation of the 
act.
    We have increased the sharing of terrorist and criminal 
identity information. Several countries have increased the 
frequency of their reporting of lost and stolen passports to 
INTERPOL. Several countries have agreed to adopt new 
technologies for vetting asylum, refugee, and other immigration 
applications.
    All VWP countries now are issuing and using for travel to 
the United States fraud-resistant electronic passports that 
meet or exceed international standards, and DHS has implemented 
enhanced restrictions on travel under the VWP for individuals 
who have traveled to certain countries of concern since March 
2011 or are dual nationals of particular countries.
    DHS manages the on-going statutorily-required monitoring 
and regular assessment process to ensure the VWP countries are 
consistently meeting program requirements. These assessments 
are performed in consultation with DHS's component agencies, 
the State Department, and other interagency partners, as well 
as the intelligence community and the governments of VWP 
countries themselves.
    Be assured that the Department engages in regular 
monitoring of all VWP countries to identify emerging threats 
and vulnerabilities and to take appropriate action. As 
Secretary Kelly recently indicated, we have to ensure the VWP 
is prepared to counter the threat of foreign fighters returning 
from the battlefields of Syria and Iraq. Under his leadership, 
DHS will continue to look at ways to work with this committee 
to strengthen the security of the program.
    Thank you, again, for the opportunity to appear before you 
today. I will look forward to answering any of your questions.
    Mr. Gallagher. Thank you, sir.
    Mr. Wagner, you are recognized for 5 minutes.

     STATEMENT OF JOHN WAGNER, DEPUTY EXECUTIVE ASSISTANT 
    COMMISSIONER, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Thank you. Chairman Gallagher and Ranking 
Member Watson Coleman and distinguished Members of the 
committee, thank you for the opportunity to speak today about 
U.S. Customs and Border Protection's role in securing 
international travel.
    Our agency works around the clock to adjudicate U.S.-bound 
travel, and we have developed mechanisms to address National 
security risks and other questions as far in advanced of 
arrival on U.S. soil as possible. To provide a sense of scale, 
last year, CBP inspected over 390 million arriving 
international travelers, of which about 119 million flew into 
our airports. That is about 327,000 international air 
passengers each day, and that is just inbound.
    Visitors make up about 50 percent of these arrival numbers, 
and they are generally split into two categories: Visa and visa 
waiver. Visitors from countries that need a visa go to the U.S. 
embassy overseas, and work with Department of State to get a 
visa. My colleague from the State Department will describe that 
process in more detail in a few minutes.
    For the Visa Waiver Program travelers, CBP has developed an 
on-line application process known as the Electronic System for 
Travel Authority, or ESTA, for short. These travelers must have 
an approved ESTA in order to board the plane overseas, and we 
have built a verification system with the airlines to support 
this.
    Now, CBP adjudicates ESTA applications against a series of 
law enforcement and intelligence databases. For the first half 
of this fiscal year, we have approved about 6.9 million ESTA 
applications, and denied over 35,600. Of these denials, about 
1,050 were due to National security concerns.
    Following the enactment of the VWP Improvement Act of 2015, 
CBP took several steps to apply the new restrictions for 
individuals who would travel to the 7 countries and individuals 
who are dual nationals. So far, this fiscal year, we have 
denied ESTAs to about 13,000 people due to travel restrictions 
and nearly 3,000 for the dual nationality.
    Now, once a visa or ESTA is issued, CBP's National 
targeting center conducts continuous vetting against a host of 
law enforcement and intelligence databases to ensure travelers 
remain eligible. If any issues arise, CBP may revoke the ESTA, 
or work directly with Department of State to have the visa 
revoked.
    For the first half of this fiscal year, over 1,800 visas 
have been revoked as a result of this, and over 450 of these 
were due to National security concerns. Now, once the travel is 
actually booked, CBP conducts predeparture vetting on all 
international travelers coming to the United States.
    By law, airlines provide CBP with advanced passenger 
manifest information and access to their reservation systems. 
CBP reviews this data along with previous crossing information, 
intelligence reports, and law enforcement databases to identify 
any potential risk factors.
    When risk factors are identified, we built several 
mechanisms to address those questions while the traveler is 
still overseas: Preclearance operations, immigration advisory 
program, and our regional carrier liaison groups. Let's start 
with preclearance.
    We have 15 air preclearance locations in six countries. 
This is where uniformed CBP officers have legal authorities to 
complete the same immigration, customs, and agriculture 
inspections of travelers at a domestic airport. This is our 
highest level of capability overseas. If found ineligible to 
travel to the United States at a preclearance location, CBP has 
the authority to deny entry on foreign soil.
    In fiscal year 2016, CBP officers processed 18.3 million 
travelers for entry into the United States at our preclearance 
locations, totaling over 15 percent of our U.S.-bound 
travelers. Of this total, CBP prevented 6,400 inadmissible 
travelers from boarding U.S.-bound flights.
    Now, second, we have the Immigration Advisory Program and 
the Joint Security Program. This is where we have plainclothes 
CBP officers at major gateway airports in Western Europe, 
Mexico, Central America, Asia, and the Middle East. Using 
advanced information from our National targeting center, IAP 
officers work in partnership with the host governments and the 
airlines to address any National security risk and immigration 
issues. If any concerns remain after our interview of the 
passenger, CBP can issue a no-board recommendation to the air 
carrier, and refer the traveler back to the U.S. embassy for a 
more thorough review of their status.
    Last year we recommended over 4,500 no-boards to the 
airlines. Now, for foreign locations not covered by 
preclearance or the IAP officers, we have regional carrier 
liaison groups that work directly with the airlines to issue 
no-board recommendations in cases where there is any National 
security concerns or any immigration questions.
    Now, once passengers arrive in the United States, all 
people are inspected by CBP officers. The experience and the 
intuition of each individual officer is invaluable, and this 
provides the final piece to the prearrival vetting and all the 
background checks. CBP officers review travel documents, review 
the results of prearrival vetting, collect biometrics, if 
required, and then interview all travelers to determine the 
purpose and their intent of travel.
    If there is any questions about their admissibility, their 
customs declaration, agricultural concerns, or any National 
security issues, the person is referred into secondary 
inspection for more thorough examination.
    So we continually strive to improve our vetting and our 
intervention initiatives to identify and close any security 
vulnerabilities, and remain closely engaged and coordinated 
with our Government counterparts, foreign governments, and our 
private-sector stakeholders.
    So thank you again for the opportunity, and I look forward 
to answering any of your questions.
    Mr. Gallagher. Thank you, Mr. Wagner.
    Mr. Settles, you are recognized for 5 minutes.

  STATEMENT OF CLARK E. SETTLES, ASSISTANT DIRECTOR, NATIONAL 
   SECURITY INVESTIGATIONS DIVISION, IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Settles. Chairman Gallagher, Ranking Member Watson 
Coleman, and distinguished committee Members, thank you for the 
opportunity to discuss the efforts of U.S. Immigration and 
Customs Enforcement to enhance U.S. visa security and to 
prevent the travel of terrorists and other criminal actors.
    Visa security is an essential component of our 
responsibility to protect the homeland, shared by both the 
Department of State and the Department of Homeland Security, 
which includes the Offices of Homeland Security Investigations, 
HSI, and U.S. Customs and Border Protection, CBP.
    At HSI, we strive to uphold our Homeland Security 
responsibility by confronting dangerous challenges on a global 
stage, with particular focus on those emanating from beyond 
America's physical borders. I am honored to highlight our 
security programs that protect the United States against an 
ever-evolving diverse and global threat.
    HSI special agents investigate transnational crime by 
conducting a wide range of criminal investigations in 
coordination with our foreign and domestic partnering agencies, 
targeting the illegal movement of people, merchandise, monetary 
instruments into, within, and out of the United States.
    The agency has extremely broad authorities and jurisdiction 
over the investigation of crimes with a nexus to U.S. borders 
and ports of entry. HSI's three operational priorities are 
border security, public safety, and National security. In an 
effort to augment and expand visa security operations, HSI is 
honored to manage the Visa Security Program in partnership with 
CBP, the Department of State, the intelligence community, and 
other DHS agencies and holdings.
    The VSP's primary purpose is to identify terrorists, 
criminals, and other individuals who pose a threat, or are 
otherwise ineligible for a visa at the earliest possible point 
in the visa application process, thereby pushing the U.S. 
borders out as far as we possibly can.
    Visa Security Program operations are currently conducted at 
30 visa-issuing posts in 25 countries. The Visa Security 
Program is currently scheduled to expand to two visa-issuing 
posts in fiscal year 2017 and plans to expand as resources 
allow every year thereafter. We understand that one of our most 
important priorities is to detect and prevent threats before 
they reach our Nation's borders.
    To achieve this objective, HSI's international operations, 
in parallel with the Visa Security Program, also deploy highly-
trained personnel to 66 offices in 49 countries. The HSI 
special agents deployed to the 30 visa-issuing posts world-wide 
utilize available and investigative resources, in-person 
interviews, and collaboration between U.S. agencies and foreign 
government counterparts in order to investigate and disrupt the 
travel of suspect individuals during the visa application 
process.
    Experience has shown the Department that there is no 
technological tool available that can substitute for having 
highly-trained and experienced investigators deployed overseas 
to conduct informed interviews, enhance the information we have 
of terrorists and other criminal networks, and share that 
information with our foreign partners.
    HSI's Visa Security Program is supported by the 
preadjudicated threat recognition and intelligence operation 
team, PATRIOT. PATRIOT is an interagency endeavor with CBP's 
National targeting system. Through PATRIOT system, VSP conducts 
automated screening of visa applicants' information against DH 
holdings, as well as holdings of other U.S. agencies prior to 
the visa applicant's interview and visa adjudication. 
Derogatory information discovered during automated screening is 
manually vetted by domestic PATRIOT personnel in the National 
capital region utilizing law enforcement, open-source, and 
Classified systems.
    PATRIOT analysts then provide deployed VSP personnel with 
the most enhanced information available well in advance of the 
visa applicant's in-person interview. Following this enhanced 
analysis of all known derogatory information, collaboration 
with foreign government partners, and participation in the in-
person visa applicant interview, HSI-deployed special agents 
provide a unified DHS recommendation on visa eligibility to the 
Department of State.
    In fiscal year 2016, VSP personnel facilitated the 
screening and vetting of more than 2.2 million visa applicants, 
recommended the refusal of 85,000 visas, and submitted 1,669 
watch list nominations for counterterrorism reasons. We also 
facilitated the legitimate trade of 442 visa applicants.
    Honorable Members, if I may, I would like to recognize this 
month we celebrate police week, a time to honor all law 
enforcement officers who lost their lives in the line of duty, 
to include a fellow HSI brother, Special Agent Jeremy Scott 
McGuire, who lost his life in the line of duty last year, and 
whose name we will be honoring and adding to the National Law 
Enforcement Officers Memorial. I just want to say: Rest in 
peace, Scott.
    Thank you for the opportunity to appear before you today 
and for your continued support out of our law enforcement 
mission. I would be pleased to answer any questions. Thank you.
    [The joint prepared statement of Mr. Dougherty, Mr. Wagner, 
and Mr. Settles follows:]
    Joint Prepared Statement of Michael Dougherty, John Wagner, and 
                            Clark E. Settles
                              May 3, 2017
                              introduction
    Chairman Gallagher, Ranking Member Watson Coleman, and 
distinguished committee Members. Thank you for the opportunity to 
appear before you today to discuss the efforts of the Department of 
Homeland Security (DHS) to prevent terrorists and other criminal actors 
from entering the United States, either by acquiring U.S. visas or 
traveling through the Visa Waiver Program (VWP). This work involves 
close interagency collaboration and partnership with foreign 
governments. Ultimately, traveler screening and vetting is an integral 
component of our responsibility to protect the homeland, and DHS 
employs a multi-layered strategy to do so.
    Furthermore, as called for in Section 5 of the President's 
Executive Order (EO) 13780, Protecting The Nation From Foreign 
Terrorist Entry Into The United States, DHS is diligently working with 
the Departments of State (DOS) and Justice and the Office of the 
Director of National Intelligence (ODNI) to implement a uniform 
baseline for screening and vetting standards and procedures. These 
standards seek ``to identify individuals who seek to enter the United 
States on a fraudulent basis, who support terrorism, violent extremism, 
acts of violence toward any group or class of people within the United 
States, or who present a risk of causing harm subsequent to their 
entry.''
    DHS Secretary John F. Kelly has made clear that blocking terrorists 
and criminals from accessing the United States is one of his highest 
priorities, and the administration is undertaking serious and sustained 
efforts to ensure that we keep bad actors from reaching our shores and 
endangering our people. As part of this effort, we are modernizing 
screening, expanding information sharing within our Government and with 
foreign partners, and exploring innovative approaches for detecting 
threat actors. By focusing on better obstructing terrorists and 
criminals, we can more effectively facilitate legitimate trade and 
travel.
                    pushing out the zone of security
    Secretary Kelly noted in his remarks at George Washington 
University on April 18, 2017, that ``[t]he more we push our borders 
out, the safer our homeland will be.'' The Secretary went on to 
highlight in those remarks the importance of knowing who is coming into 
the country and what their intent for coming is prior to their arrival 
``at our doorstep.'' There are a multitude of activities, efforts, and 
programs that DHS and its component agencies undertake to do just that.
    In fiscal year 2016, U.S. Customs and Border Protection (CBP) 
inspected over 390 million travelers at 328 ports of entry (POE), of 
which over 119 million flew into air POEs. CBP's pre-departure strategy 
is one of the ways by which DHS assists our interagency, foreign 
government, and private-sector partners to deny international travel to 
potential terrorists and criminals. A major component of this strategy 
is the recommendation of denial of visas, as well as denial and/or 
revocation of visa waiver approvals to individuals who may present a 
risk to National security or public safety. It is a risk-based, 
intelligence-driven strategy that extends our border security efforts 
outward to detect, assess, and mitigate, at the earliest possible point 
in the travel continuum, any risk posed by travelers before they reach 
the United States. As threats evolve, CBP works in close partnership 
with our foreign counterparts--including those in Europe, North Africa, 
and the Middle East--to develop greater situational awareness of 
emerging threats, leverage partner capabilities to affect threat 
networks, and coordinate enforcement actions. These concerns are not 
limited to the United States and there is a growing international 
commitment to combating these shared threats to our security.
    U.S. Immigration and Customs Enforcement (ICE) also actively works 
to push our defenses outward. To achieve this goal, ICE forward deploys 
personnel to 66 offices in 49 countries. ICE's international staff 
works in conjunction with overseas law enforcement counterparts to 
detect, disrupt, and dismantle transnational criminal groups and 
individuals who seek to harm our country and people. Furthermore, ICE 
special agents investigate transnational crime by conducting a wide 
range of criminal investigations in coordination with our foreign and 
domestic partner agencies, targeting the illegal movement of people, 
merchandise, and monetary instruments into, within, and out of the 
United States.
Visa and Travel Authorization Security
    As President Trump has stated, ``Homeland Security is in the 
business of saving lives, and that mandate will guide our actions.'' 
Since taking office this administration has worked tirelessly to 
enhance border security, promote public safety, and minimize the threat 
of terrorist attacks by foreign nationals in the United States. Part of 
this process is ensuring the security of international travel by 
preventing dangerous persons from obtaining visas, travel 
authorizations, and boarding passes. Before boarding a flight or vessel 
destined for the United States, most foreign nationals must obtain a 
non-immigrant visa from the DOS--issued at a U.S. Embassy or Consulate. 
The visa process involves multiple security checks, including screening 
of applicants against a wide array of criminal and terrorist databases 
to verify the individual's identity and to detect derogatory 
information that might lead to an inadmissibility determination, as 
well as an in-person interview with the applicant.
    CBP also conducts vetting of all valid immigrant and non-immigrant 
visas. Although the visa application and adjudication processes rest 
with the DOS, CBP's National Targeting Center (NTC) conducts continuous 
vetting of U.S. immigrant and nonimmigrant visas that have been 
recently issued or revoked. Recurrent vetting ensures that changes in a 
traveler's admissibility and eligibility for travel are identified in 
near-real time, allowing CBP to immediately determine if it is 
necessary to take action prior to subject's arrival to the United 
States, such as a ``no-board'' recommendation to a carrier, and/or a 
recommendation to the DOS to revoke the visa.
    In an effort to augment and expand visa security operations, ICE 
manages the Visa Security Program (VSP) for DHS. VSP's primary purpose 
is to identify terrorists, criminals, and other individuals who pose a 
threat or are otherwise ineligible for visas prior to visa adjudication 
or application for admission to the United States. VSP operations are 
currently conducted at 30 visa-issuing posts in 25 countries.
    Through the VSP, ICE deploys special agents to visa-issuing posts 
world-wide to utilize available investigative resources, in-person 
interviews, and collaboration between U.S. agencies and our foreign 
counterparts, in order to investigate and disrupt the travel of suspect 
individuals during the visa application process. Experience has shown 
the Department that there is no technological substitute for having 
experienced ICE special agents deployed overseas to apply law 
enforcement capabilities to the visa process through investigative 
measures, informed interviews with suspect applicants, and leveraging 
local contacts for information.
    Special agents assigned to international VSP posts are supported 
through domestic-based screening and vetting of visa applicants, the 
Pre-Adjudicated Threat Recognition and Intelligence Operations Team 
(PATRIOT). PATRIOT is an interagency endeavor between ICE and CBP's 
NTC. Through PATRIOT, VSP conducts automated screening of visa 
application information against DHS holdings, as well as holdings of 
other U.S. agencies, prior to the visa applicant's interview and visa 
adjudication. Derogatory information discovered during automated 
screening is manually vetted and analyzed by domestic PATRIOT personnel 
using law enforcement, open source, and Classified information. PATRIOT 
analysts then provide deployed VSP personnel with relevant information 
prior to interviews and other investigative activities. Following an 
analysis of all known derogatory information, deployed ICE special 
agents provide a unified DHS recommendation on visa eligibility to DOS 
consular officers.
    In fiscal year 2016, VSP deployed special agents and PATRIOT 
personnel facilitated the screening and vetting of more than 2.2 
million visa applicants, recommended the refusal of more than 8,500 
visas, and submitted 1,669 Terrorist Screening Center Database 
nominations. The VSP will expand to two additional posts in fiscal year 
and is tentatively scheduled to add an additional two posts in fiscal 
year 2018.
    If travelers are eligible to travel under the VWP, they must apply 
for and be approved for a travel authorization via the Electronic 
System for Travel Authorization (ESTA). Through ESTA, CBP conducts 
enhanced vetting of potential VWP travelers to assess whether they are 
eligible to travel under the VWP or could pose a risk to the United 
States or the public at large. All ESTA applications are screened 
against security and law enforcement databases, and CBP automatically 
refuses authorization to individuals who are found to be ineligible to 
travel to the United States under the VWP. Similarly, current and valid 
ESTAs may be revoked if concerns arise through recurrent vetting.\1\
---------------------------------------------------------------------------
    \1\ Recurrent vetting is on-going throughout the period of validity 
of the ESTA. ESTA applicants who are denied may apply for a 
nonimmigrant visa.
---------------------------------------------------------------------------
    In November 2016, CBP launched the Electronic Visa Update System 
(EVUS). Similar to ESTA, EVUS is an on-line system used by visa holders 
to periodically update their biographic information to facilitate their 
travel to the United States.\2\ To maintain a valid visa for purposes 
of seeking admission to the United States, travelers with designated 
nonimmigrant visas from identified countries are required to maintain a 
valid EVUS enrollment before traveling to the United States. 
Enrollments generally last for 2 years or when the traveler's visa or 
passport expires, whichever comes first. Data collected through EVUS 
helps us determine whether such travel poses a law enforcement or 
security risk by checking against select law enforcement databases and 
queries law enforcement databases that include terrorist screening, 
lost/stolen passports, INTERPOL wants/warrants, and immigration 
violations.
---------------------------------------------------------------------------
    \2\ At this time, EVUS is only a requirement for individuals 
traveling on passports issued by the People's Republic of China who 
have been issued unrestricted, maximum validity B-1 (visitor for 
business) or B-2 (visitor for pleasure) visas, generally valid for 10 
years, Chinese nationals. The requirement is new, and the U.S. 
Government expects that it may be applied to additional countries or 
nonimmigrant categories may be designated in the future.
---------------------------------------------------------------------------
    Finally, thanks to the support of Congress, the Department of 
Homeland Security Appropriations Act of 2015 \3\ provided the necessary 
funds for CBP to initiate counter-network operations within the NTC. 
The newly established Counter Network Division's (CND) mission supports 
CBP, other DHS components, and interagency law enforcement and 
intelligence community partners to develop an interoperable counter-
network process that provides a comprehensive understanding of emerging 
threats, including those emanating from terrorism, special interest 
aliens, transnational organized crime and illicit trade networks. 
Informed through identification of the tactics, techniques, and 
procedures of adversarial networks--including their efforts to exploit 
legitimate travel pathways and processes such as the visa process and 
the VWP--the CND quickly develops analytic solutions and makes those 
available across DHS components to mitigate further risk.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 114-4.
---------------------------------------------------------------------------
Visa Waiver Program
    An important way in which DHS is pushing out the zone of security 
is to work with our international partners, including those countries 
who are members of the VWP. DHS's focus and priority for the VWP is to 
make it a comprehensive security partnership with America's closest 
allies. The VWP must be a security program first and foremost--merging 
together best practices in National security, law enforcement security, 
and immigration security; and providing the United States with an 
effective tool for fostering and deepening our National security 
relationships with key partner countries. As Secretary Kelly recently 
indicated, we have to continue to look at ways to strengthen the 
security of the VWP given the threat of foreign fighters returning from 
the battlefields of Syria and Iraq. DHS is committed to fully ensuring 
that the VWP is serving the security interests of the United States.
    Currently, 38 countries \4\ \5\ participate in the VWP, which 
allows their nationals to travel to the United States for business or 
tourism for stays of up to 90 days (with certain exceptions) after 
applying and being approved through the ESTA.\6\ In return, these 
countries must prove that measurable and consistently high requirements 
are met, including: That information-sharing practices enable the rapid 
relay of information concerning known and suspected terrorists and 
serious criminals; that lost and stolen passport information is 
consistently and timely reported; that robust border and travel 
document security practices are in place; and that effective traveler 
and migrant screening practices are standard operations. VWP countries 
also undergo regular, in-depth security assessments conducted by DHS in 
consultation with DOS to ensure compliance with these requirements.
---------------------------------------------------------------------------
    \4\ VWP-eligible countries: Andorra, Australia, Austria, Belgium, 
Brunei, Chile, Czech Republic, Denmark, Estonia, Finland, France, 
Germany, Greece, Hungary, Iceland, Ireland, Italy, Japan, Korea, 
Latvia, Liechtenstein, Lithuania, Luxembourg, Malta, Monaco, The 
Netherlands, New Zealand, Norway, Portugal, San Marino, Singapore, 
Slovakia, Slovenia, Spain, Sweden, Switzerland, Taiwan, United Kingdom.
    \5\ Per the Taiwan Relations Act of 1979, all references to 
``country'' or ``countries'' in this document also apply with respect 
to Taiwan.
    \6\ Exceptions include citizens of countries under other visa 
exempt authority, such as Canada. Citizens of countries under visa 
exempt authority traveling to entering the United States via air are 
subjected to CBP's vetting and inspection processes prior to their 
departure for the United States. In the land environment, they are 
subject to CBP processing upon arrival at a U.S. port of entry.
---------------------------------------------------------------------------
    The assessments of a VWP country's security standards and 
operations are among the broadest and most consequential reviews 
conducted under any U.S. Government program. Rigorous National-level 
assessments are used to ensure that countries meet the security 
standards required for continued participation in the program. DHS, in 
coordination with the DOS and the intelligence community, conducts 
statutorily-required reviews of each VWP country at least once every 2 
years. The VWP assessment evaluates the country's counterterrorism and 
law enforcement capabilities, immigration enforcement policies and 
procedures, passport production and issuance processes, and border 
security traveler screening capabilities. As needed, the review may 
also include a site visit where an integrated U.S. Government team 
conducts thorough inspections of airports, seaports, land borders, and 
passport production and issuance facilities in the VWP country and 
holds discussions with the host government, counterterrorism, 
intelligence, law enforcement, border security, and immigration 
officials. DHS submits a Report to Congress upon the completion of the 
assessment. Notably, both the Government Accountability Office (GAO) 
and the DHS Office of the Inspector General (OIG) have reviewed and 
written favorably of the methodology DHS uses in conducting these 
assessments.\7\
---------------------------------------------------------------------------
    \7\ DHS report OIG-13-07 ``The Visa Waiver Program,'' November 
2012. GAO report GAO-16-498 ``Visa Waiver Program,'' May 2016.
---------------------------------------------------------------------------
    Separately, DHS also conducts an annual assessment of all 38 VWP 
countries against the risk criteria defined in the Visa Waiver Program 
Improvement and Terrorist Travel Prevention Act of 2015 (VWP 
Improvement Act), passed under this committee's leadership, and engages 
in on-going monitoring of member countries to rapidly identify emerging 
threats and vulnerabilities.
    The bottom line is that in order to join or continue in the VWP, a 
country cannot represent a threat to the United States and must be 
working as a partner to prevent terrorist travel. In all instances, the 
Secretary of Homeland Security retains the statutory authority to 
suspend or terminate a country's participation in the VWP if there is a 
credible threat originating from that country that poses an imminent 
danger to the United States or its citizens.
    Under the VWP Improvement Act, VWP countries are now required to 
issue high-security electronic passports (e-passports); implement 
information-sharing arrangements to exchange criminal and terrorist 
identity information; establish mechanisms to validate e-passports at 
each key POE; report all lost and stolen passports to INTERPOL or 
directly to the United States no later than 24 hours after the country 
becomes aware of the loss or theft; conclude a U.S. Federal Air 
Marshals agreement; collect and analyze Advance Passenger Information 
(API)/Passenger Name Record (PNR) information to identify high-risk 
travelers; screen international travelers against the INTERPOL Stolen 
and Lost Travel Documents (SLTD) database and notices; report foreign 
fighters to multilateral security organizations, such as INTERPOL or 
EUROPOL; and cooperate with the United States in the screening of 
refugees and asylum seekers.
    Since passage of the Act, DHS has confirmed the following changes 
among VWP countries:
  <bullet> An increase in the sharing of terrorist and criminal 
        identity information;
  <bullet> Several countries \8\ have increased the frequency of their 
        reporting of lost and stolen passports--VWP countries account 
        for over 70 percent of the almost 73 million lost and stolen 
        travel documents reported to INTERPOL;
---------------------------------------------------------------------------
    \8\ Including Brunei, Greece, Hungary, and Portugal.
---------------------------------------------------------------------------
  <bullet> Several countries have agreed to adopt new technologies to 
        work with DHS to jointly vet asylum, refugee, and other 
        immigration applications against each other's data, 
        establishing a formidable force multiplier for detecting 
        criminals, terrorists, and unqualified applicants; and
  <bullet> All VWP countries are now issuing and using for travel to 
        the United States fraud-resistant e-passports that meet or 
        exceed the International Civil Aviation Organization standards.
    In addition, following the enactment of the VWP Improvement Act, 
DHS has taken several steps to apply enhanced restrictions on visa-free 
travel under the VWP for individuals who have traveled to Iran, Iraq, 
Sudan, Syria, Libya, Somalia, or Yemen or individuals who are dual 
nationals of Iran, Iraq, Sudan, or Syria. Beginning January 13, 2016, 
CBP initiated a protocol to identify ESTA holders who had travelled to 
Iraq, Syria, Iran, or Sudan since March 1, 2011 who may be ineligible 
for future travel if they do not meet the criteria for a waiver allowed 
for under the Act. On February 18, 2016, DHS announced that individuals 
who had travelled to Libya, Somalia, and Yemen also may be ineligible 
for future travel if they do not meet the criteria for a waiver.\9\ 
Additionally, on January 21, 2016, CBP began denying new ESTA 
applications and revoking existing ESTAs for individuals who indicated 
dual nationality with Iran, Iraq, Sudan, or Syria.
---------------------------------------------------------------------------
    \9\ In fiscal year 2016, since implementing the new travel and dual 
nationality restrictions to the Visa Waiver Program, CBP denied, 
canceled, or revoked 39,303 ESTA applications. These individuals would 
not be eligible to travel under the VWP.
---------------------------------------------------------------------------
    In November 2014, in response to increasing concerns regarding 
foreign terrorist fighters, DHS strengthened the security of the VWP 
through the addition of new data elements to the ESTA application. 
These enhancements included a series of additional questions a VWP 
traveler must answer on the ESTA application, to include other names/
aliases, citizenships, contact information, and city of birth.
                           arrival processing
    CBP's use of advance information, its pre-departure targeting 
operations, and its overseas footprint all comprise critical parts of 
CBP's multi-layered security strategy to address concerns long before 
they reach the physical border of the United States. U.S. law requires 
all private and commercial air and sea carriers operating routes to, 
from, or through the United States to provide API and PNR data to CBP. 
These data, which include travelers' biographic and travel reservation 
information, are screened against U.S. and international law 
enforcement and counterterrorism databases to identify high-risk 
individuals before they fly to the United States. Even if issued a visa 
or other travel authorization, however, it is important to note that 
upon arrival in the United States, all persons are subject to 
inspection by CBP officers. CBP officers review entry documents, query 
CBP and other law enforcement databases, collect biometrics (including 
from VWP travelers),\10\ and interview all travelers to determine the 
purpose and intent of their travel, and whether any further inspection 
is necessary based on, among other things, National security, 
admissibility, customs, or agriculture concerns.
---------------------------------------------------------------------------
    \10\ Biometrics are collected for most foreign nationals arriving 
at U.S. airports.
---------------------------------------------------------------------------
    Of note, CBP's Tactical Terrorism Response Teams (TTRT) are 
deployed at U.S. POEs and consist of CBP officers who are specially 
trained in counterterrorism response. TTRT officers utilize information 
derived from targeting and inspection to mitigate possible threats. 
TTRT officers are immersed in the current and developing threat picture 
through the continuous review of information, and are responsible for 
the examination of travelers identified within the Terrorist Screening 
Database, and other travelers suspected of having a nexus to terrorism 
who arrive to a POE. For fiscal year to date,\11\ as a result of the 
dedicated efforts of the men and women serving on CBP's TTRT, and the 
information discovered during secondary inspection, nearly 600 people 
who had been granted visas or other travel documents, or had an 
approved ESTA, have been refused admission to the United States. CBP 
officers and agents remain our last line of defense against those who 
would seek to enter the country to do us harm.
---------------------------------------------------------------------------
    \11\ As of April 19, 2017.
---------------------------------------------------------------------------
    In addition, CBP officers remove from circulation counterfeit, 
fraudulent, and altered travel documents, as well as lost or stolen 
travel documents presented for use by an individual other than the 
rightful holder, such as those presented by impostors. CBP currently 
uses 1:1 facial comparison technology at select primary lanes at John 
F. Kennedy International Airport and Washington Dulles International 
Airport on U.S. and non-U.S. travelers arriving in the United States. 
This technology enables CBP officers to use facial recognition 
technology as a tool to assist in determining whether an individual 
presenting a valid e-passport is the same individual whose photograph 
is contained in that passport. In those cases where the CBP officer is 
unsure of the traveler's true identity, the traveler is referred for 
additional checks to confirm identity or to document fraudulent use of 
a passport. Since this technology was deployed in early 2016, over 
400,000 travelers have had their identities confirmed with the use of 
1:1 facial comparison technology.
    Finally, CBP's Fraudulent Document Analysis Unit (FDAU) serves as 
the central repository and point of analysis for all fraudulent travel 
documents interdicted or recovered by CBP personnel. FDAU analysis of 
fraudulent documents provides intelligence, alerts, and training back 
to the field, as well as serves as a mechanism to remove fraudulent 
documents from circulation to prevent their further use--a lesson 
learned from the 9/11 Commission Report. This cyclical process adds a 
layer of security to the homeland by removing an additional opportunity 
for misuse.
 identifying and apprehending threats to national security and public 
                    safety within the united states
    An important mission of DHS is to actively identify and initiate 
enforcement action on persons who have overstayed their terms of 
admission in the United States and who pose a threat to national 
security, border security, or public safety. ICE undertakes this very 
important activity for DHS. Within ICE, there are dedicated units, 
special agents, analysts, and systems in place to address nonimmigrant 
overstays. Through investigative efforts, ICE analyzes and determines 
which overstay leads may be suitable for further National security 
investigation. Once leads are received, ICE conducts both batch and 
manual vetting against Government databases, public indices, and social 
media (when appropriate). This vetting helps determine if an individual 
who overstayed has departed the United States, adjusted to a lawful 
status, has a pending immigration benefit application, or would be 
appropriate for an enforcement action.
    As part of this tiered review, ICE prioritizes nonimmigrant 
overstay cases through risk-based analysis. ICE Homeland Security 
Investigation's (HSI) Counterterrorism and Criminal Exploitation Unit 
(CTCEU) oversees the National program dedicated to the investigation of 
nonimmigrant visa violators who may pose a National security risk and/
or public safety concern. Each year, CTCEU analyzes records of hundreds 
of thousands of potential status violators after preliminary analysis 
of data from various Government systems, including the Student and 
Exchange Visitor Information System (SEVIS) and CBP's Arrival and 
Departure Information System (ADIS), along with other information. 
After this analysis, CTCEU establishes compliance or departure dates 
from the United States and/or determines potential violations that 
warrant field investigations.
    CTCEU proactively develops cases for investigation in furtherance 
of the overstay mission, monitors the latest threat reports, and 
addresses emergent issues. This practice, which is designed to detect 
and identify individuals exhibiting specific risk factors based on 
intelligence reporting, travel patterns, and in-depth criminal research 
and analysis, has contributed to DHS's counterterrorism mission by 
initiating and supporting high-priority National security initiatives 
based on specific intelligence.
    In fiscal year 2015, CTCEU reviewed 971,305 leads regarding 
potential overstays. Numerous leads were closed through an automated 
screening and vetting process. The most common reason for closure was 
subsequent departure from the United States. A total of 9,968 leads 
were sent to HSI field offices for investigation. As a result in fiscal 
year alone, HSI made 1,910 arrests, secured 86 indictments, and 
obtained 80 convictions.
    CTCEU refers leads that do not meet ICE HSI criteria for further 
investigation to ICE Enforcement and Removal Operations' National 
Criminal Analysis and Targeting Center.
                               conclusion
    The men and women of DHS and its component agencies do a tremendous 
job every day to protect our country. As terrorists and criminals 
change their methods and tactics and technologies continue to evolve, 
DHS will work with its interagency and foreign partners--as well as 
private-sector partners--to adapt and respond swiftly and effectively 
to prevent their entry into the United States.
    Thank you again for the opportunity to testify today. We look 
forward to answering your questions.

    Mr. Gallagher. Thank you, Mr. Settles.
    Mr. Ramotowski. Am I saying it right? Ramotowski or 
Ramotowski.
    Mr. Ramotowski. That is absolutely right, Ramotowski.
    Mr. Gallagher. Ramotowski. I apologize if I butchered that 
before. You are recognized for 5 minutes.

STATEMENT OF EDWARD J. RAMOTOWSKI, DEPUTY ASSISTANT SECRETARY, 
       OFFICE OF VISA SERVICES, U.S. DEPARTMENT OF STATE

    Mr. Ramotowski. Thank you, Chairman Gallagher, Ranking 
Member Watson Coleman, and distinguished Members of the 
committee. I am pleased to assure you that the Department of 
State takes our commitment to protect America's borders and 
citizens very seriously. Toward this end, we constantly analyze 
and update our screening and clearance procedures.
    Mr. Chairman, the U.S. visa system is a layered interagency 
effort focused first and foremost on National security. 
Beginning with a petition to DHS, or a visa application 
submitted to a consular section abroad, during the interview, 
prior to travel, upon arrival in the United States, and while 
the traveler is in the United States, the Department of State 
works together with our National law enforcement and 
intelligence partners to protect our borders.
    The vast majority of visa applicants and all immigrant visa 
applicants are interviewed in person by a consular officer. 
Each consular officer completes an extensive training program 
which has a strong emphasis on border security, fraud 
prevention, interagency coordination, and interviewing 
techniques.
    In addition to that, 122 assistant regional security 
officer investigators at 107 diplomatic posts world-wide work 
with consular officers to bring additional law enforcement and 
antiterrorism expertise to the visa process.
    All visa applicants are vetted against databases, which 
contain millions of records of individuals found ineligible for 
visas in the past or regarding whom potentially derogatory 
information exists on terrorist, criminal, or other grounds. We 
collect 10 fingerprint scans from nearly all these applicants, 
and screen them against the DHS and FBI databases of known and 
suspected terrorists, wanted persons, immigration law 
violators, and criminals.
    All visa applicants are screened against photos of known or 
suspected terrorists and prior visa applicants. When an 
interview raises any concerns that the applicant may be a 
threat to National security, or the interagency screening 
process shows potentially derogatory information, the consular 
officer suspends the visa processing and submits a request for 
a Washington-based interagency security advisory opinion 
review, which is conducted by Federal law enforcement and 
intelligence agencies, as well as the Department of State.
    As my colleague noted, the Department of Homeland 
Security's PATRIOT system and the Visa Security Program provide 
additional protections at certain of our overseas posts. DHS 
Immigration and Customs Enforcement special agents assigned to 
29 embassies and consulates in high-threat locations provide 
on-site vetting of visa applications, as well as other law 
enforcement support and training to consular officers.
    But security reviews do not stop when the visa is issued. 
The Department and partner agencies continuously match new 
threat information with our records of existing visas, and we 
use our authority to revoke those visas when warranted. We 
refuse more than 2 million visa applications each year. Since 
2001, the Department has revoked more than 160,000 visas based 
on information that surfaced after the issuance of the visa. 
This includes nearly 11,000 visas potentially revoked after 
information emerged, post-issuance, suggesting possible links 
to terrorism. Notice of these revocations is shared across the 
interagency in near-real time.
    Executive Order 13780 on Protecting the Nation from 
Terrorist Attacks by Foreign Nationals signed by the President 
of March 6, 2017, and the Presidential Memorandum on Heightened 
Screening articulate the administration's commitment to 
rigorously and continuously upgrade and refine our screening 
and vetting processes to keep this country safe.
    These actions range from interagency efforts to harmonize 
screening and vetting standards across multiple immigration 
programs to focusing on ways to improve our ability to deport 
criminal aliens.
    Additionally, the Department recently instructed posts 
world-wide to develop criteria for identifying sets of visa 
applicant populations that warrant increased scrutiny. We have 
likewise heightened vetting for any visa applicant who was ever 
present in any ISIS-controlled territory.
    Mr. Chairman and distinguished Members of the committee, 
the Department of State's highest priority is the safety of our 
fellow citizens at home and overseas. Every visa decision is a 
National security decision. We appreciate the support of the 
Congress as we constantly work to strengthen our system. I 
would encourage you to visit our consular sections when you are 
abroad to see how we do this on a daily basis. I look forward 
to your questions.
    [The prepared statement of Mr. Ramotowski follows:]
               Prepared Statement of Edward J. Ramotowski
                              May 3, 2017
    Good morning Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee, and thank you for this 
opportunity to testify at today's hearing. The Department of State is 
fully dedicated to the protection of our borders. We have no higher 
priority than the safety of our fellow citizens at home and overseas. 
We and our partner agencies throughout the Federal Government have 
built a layered visa and border security screening system, and continue 
to refine and strengthen the five pillars of visa security: 
Technological advances, biometric innovations, personal interviews, 
data sharing, and training. We are the first line of defense in border 
security, as the Department of State is often the first U.S. Government 
agency to have contact with foreign nationals wishing to travel to the 
United States, and we fully share your commitment to preventing 
individuals from exploiting the visa process as a means of entering our 
country with the intent to do harm.
    This layered approach enables the Department of State to track and 
review the visa eligibility and status of foreign visitors from their 
visa applications to their entry into the United States. Lessons 
learned through the years have led to significant improvements in 
procedures and capabilities. At the same time, recent terror incidents 
both overseas and at home have demonstrated the changing nature of 
threats and our obligation to constantly analyze, test, and update our 
clearance procedures. We will never stop doing so.
                  a layered approach to visa security
    In coordination with interagency partners, the Department has 
developed, implemented, and refined an intensive visa application and 
screening process. We require personal interviews in most cases, 
including all immigrant and fiance cases, employ analytic interviewing 
techniques, and incorporate multiple biographic and biometric checks in 
the visa process. Underpinning the process is a sophisticated global 
information technology network that shares data among the Department 
and Federal law enforcement and intelligence agencies. Security is our 
primary mission. Every visa decision is a National security and public 
safety decision. The rigorous security screening regimen I describe 
below applies to all visa categories.
    Visa applicants submit on-line applications--the on-line DS-160 
nonimmigrant visa application form, or the on-line DS-260 immigrant 
visa application form. On-line forms enable consular and fraud 
prevention officers, and our intelligence and law enforcement partners, 
to analyze data in advance of the visa interview, including the 
detection of potential non-biographic links to derogatory information. 
The on-line forms offer foreign language support, but applicants must 
respond in English, to facilitate information sharing among the 
Department and other Government agencies.
    Consular officers use a multitude of tools to screen visa 
applications. No visa can be issued unless all relevant concerns are 
fully resolved. The vast majority of visa applicants--including all 
applicants for which there are any concerns--are interviewed by a 
consular officer. During the interview, consular officers pursue case-
relevant issues pertaining to the applicant's identity, qualifications 
for the particular visa category in question, and any information 
pertaining to possible ineligibilities including those related to 
criminal history, prior visa applications or travel to the United 
States, and/or links to terrorism and other security threats.
    Consular officers also employ a variety of statutory tools to 
adjudicate visa applications. Under the law that applies to most 
nonimmigrant visa classifications, if the consular officer believes a 
nonimmigrant visa applicant may fail to abide by the requirements of 
the visa category in question, the application will be refused under 
section 214(b) of the Immigration and Nationality Act (INA). A consular 
officer may also initially refuse a case under INA section 221(g) to 
confirm information presented in the application, request additional 
information from the applicant, request a security or legal review from 
Washington, or pursue local leads or other information to determine 
whether the applicant is subject to a security or non-security-related 
ineligibility. In fiscal year 2016, consular officers denied 2,980,271 
visas (includes both final and administrative refusals), conducted 
138,324 fraud case reviews, and sent 36,258 requests for 
reconsideration to USCIS for petitions previously approved.
    As a matter of standard procedure, all visa applicant data is 
reviewed through the Department's Consular Lookout and Support System 
(CLASS), an on-line database containing approximately 36 million 
records of persons, including those found ineligible for visas and 
persons who are the subjects of potentially derogatory information, 
drawn from records and sources throughout the U.S. Government. CLASS is 
populated, in part, through an export of the Terrorist Screening 
Database (TSDB), the Federal terrorism watch list. CLASS employs 
sophisticated name-searching algorithms to identify accurate matches 
between visa applicants and any derogatory information contained in 
CLASS. We also run all visa applicants' names against the Consular 
Consolidated Database (CCD, our internal automated visa application 
record system) to detect and respond to any derogatory information 
regarding visa applicants and visa holders, and to check for prior visa 
applications, refusals, or issuances. The CCD contains more than 181 
million immigrant and nonimmigrant visa records dating back to 1998. 
This robust searching capability, which takes into account variations 
in spelling and naming conventions, is central to our procedures.
    We collect 10-print fingerprint scans from nearly all visa 
applicants, except certain foreign government officials, diplomats, 
international organization employees, and visa applicants over the age 
of 79 or under the age of 14. Those fingerprints are screened against 
two key databases: First, the Department of Homeland Security's (DHS) 
IDENT database, which is a database of available fingerprints of known 
and suspected terrorists, wanted persons, and those who have committed 
immigration violations; and second, the Federal Bureau of 
Investigation's (FBI) Next Generation Identification (NGI) system, 
which contains more than 75.5 million criminal history records.
    All visa photos are screened against a gallery of photos of known 
or suspected terrorists obtained from the FBI's Terrorist Screening 
Center (TSC), and against visa applicant photos contained in the 
Department's CCD.
    In 2013, in coordination with multiple interagency partners, the 
Department launched the ``Kingfisher Expansion'' (KFE) counterterrorism 
visa vetting system. While the precise details of KFE vetting cannot be 
detailed in this document, KFE supports a sophisticated comparison of 
multiple fields of information drawn from visa applications against 
intelligence community and law enforcement agency databases in order to 
identify terrorism concerns. If a ``red-light'' hit is communicated to 
the relevant consular post, the consular officer suspends the 
application and submits it for a Washington-based interagency Security 
Advisory Opinion (SAO) review by Federal law enforcement and 
intelligence agencies. In addition to this KFE ``red-light'' scenario, 
consular officers are required to submit SAO requests in any case with 
applicable CLASS name-check results, and for a variety of interagency-
approved policies developed to vet travelers that raise security 
concerns, including certain categories of travelers with a particular 
nationality or place of birth. In any case in which reasonable grounds 
exist to question visa eligibility on security-related grounds or when 
otherwise required by interagency policy, regardless of name-check 
results, a consular officer suspends visa adjudication and requests an 
SAO. Consular officers receive extensive training on the SAO process, 
which under the aforementioned circumstances, requires them to deny the 
visa per INA section 221(g) and submit the case for interagency review 
via an SAO for any possible security-related ineligibilities. An 
applicant subject to this review may be found eligible for a visa only 
if the SAO process resolves all concerns.
    DHS's Pre-adjudicated Threat Recognition and Intelligence 
Operations Team (PATRIOT) and Visa Security Program (VSP) provide 
additional law enforcement review of visa applications at designated 
overseas posts. PATRIOT is a pre-adjudication visa screening and 
vetting initiative that employs resources from DHS/Immigration and 
Customs Enforcement (ICE), Customs and Border Protection (CBP), and the 
Department of State. It was established to identify National security, 
public safety, and other eligibility concerns prior to visa issuance. A 
team of agents, officers, and analysts from ICE and CBP perform manual 
vetting of possible derogatory matches.
    PATRIOT works in concert with the Visa Security Units (VSU) located 
in 29 high-threat posts, and we are working with ICE to deploy VSUs to 
more visa-issuing posts as rapidly as available resources will support. 
ICE special agents assigned to VSUs provide on-site vetting of visa 
applications and other law enforcement support to consular officers. 
When warranted, DHS officers assigned to VSUs conduct targeted, in-
depth reviews of individual visa applications and applicants prior to 
issuance, and can recommend refusal or revocation of applications to 
consular officers. The Department of State works closely with DHS to 
ensure that no known or suspected terrorist inadvertently receives a 
visa or is admitted into our country.
                                training
    Consular officers are trained to take all prescribed steps to 
protect the United States and its citizens when making visa 
adjudication decisions. Each consular officer completes an intensive, 
6-week Basic Consular Course. This course features a strong emphasis on 
border security and fraud prevention, with more than 40 classroom hours 
devoted to security, counterterrorism, fraud detection, and visa 
accountability programs which are supplemented by computerized self-
study tutorials to review this information. Adjudicators receive 
extensive classroom instruction on immigration law, Department policy 
and guidance, and consular systems, including how to review background 
data checks and biometric clearances.
    Students learn about the interagency vetting process through 
briefings from the Bureau of International Security and 
Nonproliferation; Consular Affairs' (CA) Office of Screening, Analysis, 
and Coordination; CA's Counterfeit Deterrence Laboratory; Diplomatic 
Security; and the DHS/ICE Forensic Document Laboratory.
    In addition, officers receive in-depth interviewing and name-check 
technique training, spending more than 30 classroom hours critiquing 
real consular interviews, debriefing role plays, and participating in 
other in-class activities. Basic interviewing training includes 
instruction in techniques for questioning an applicant to elicit 
information relevant to assessing visa eligibility. Officers practice 
analyzing verbal and non-verbal cues to judge an applicant's 
credibility and the veracity of the applicant's story. They examine and 
assess documentation, including electronic application forms, internal 
background check information, passports, and required supporting 
documents during the interview.
    Officers receive continuing education in all of these disciplines 
throughout their careers. All consular officers have top-secret 
clearances, and most speak the language of the country to which they 
are assigned and receive training in the culture of the host country.
                          visas viper program
    U.S. missions overseas report information about foreign nationals 
with possible terrorist connections through the Viper reporting 
program. Following the December 25, 2009 attempted terrorist attack on 
Northwest Flight 253, we strengthened the procedures and content 
requirements for Viper reporting. Chiefs of Mission are responsible for 
ensuring that all appropriate agencies and offices at post contribute 
relevant information for Viper nominations. Viper cables must include 
complete information about all previous and current U.S. visas. On 
December 31, 2009, we updated instructions regarding procedures and 
criteria used to revoke visas. We added specific reference to cases 
that raise security and other concerns to the guidance regarding 
consular officers' use of the authority to deny visa applications under 
INA section 214(b), if the applicant does not establish visa 
eligibility to the satisfaction of the consular officer. Instruction in 
appropriate use of this authority has been a fundamental part of 
officer training for several years.
                 continuous vetting and visa revocation
    Federal agencies have been matching new threat information against 
existing visa records since 2002. We have long recognized this function 
as critical to managing our records and processes. This system of 
continual vetting evolved as post-9/11 reforms were instituted, and is 
now performed in cooperation with the TSC, the National 
Counterterrorism Center (NCTC), FBI, DHS/ICE, and DHS/CBP's National 
Targeting Center (NTC). All records added to the TSDB and Terrorist 
Identities Datamart Environment (TIDE) are checked against the CCD to 
determine if there are matching visa records. In addition to 
recurrently vetting against biographic data taken during the visa 
process, biometric data taken during the visa process is likewise 
available to interagency partners in their counterterrorism and law 
enforcement efforts. Vetting partners send these matches electronically 
to the Department of State, where analysts review the hits and flag 
cases for possible visa revocation. We have information-sharing 
agreements under which we widely disseminate our data to other agencies 
that may need to learn whether a subject of interest has, or has ever 
applied for, a U.S. visa.
    The Department of State has broad authority to revoke visas, and we 
use that authority widely to protect our borders. Cases for revocation 
consideration are forwarded to the Department of State's Visa Office by 
embassies and consulates overseas, NTC, NCTC, and other entities. As 
soon as information is established to support a revocation (i.e., 
information that surfaced after visa issuance that could lead to an 
ineligibility determination, or otherwise indicates the visa holder 
poses a potential threat), a code showing the visa revocation, and 
lookout codes indicating specific potential visa ineligibilities, are 
added to CLASS, as well as to biometric identity systems, and then 
shared in near-real time (within approximately 15 minutes) with the DHS 
lookout systems used for border screening. As part of its enhanced pre-
departure screening, CBP uses these records, among other lookout codes, 
to recommend that airlines not board certain passengers on flights 
bound for the United States. Every day, we receive requests to review 
and, if warranted, revoke visas for aliens for whom new derogatory 
information has been discovered since the visa was issued. The 
Department of State's Operations Center is staffed 24 hours a day, 7 
days a week, to address urgent requests, such as when a potentially 
dangerous person is about to board an aircraft. In those circumstances, 
the Department of State can and does use its authority to revoke the 
visa immediately. We continue to work with our interagency partners to 
refine the visa revocation and associated notification processes.
    Revocations are typically based on new information that has come to 
light after visa issuance. Since individuals' circumstances change over 
time, and people who once posed no threat to the United States can 
become threats, continuous vetting and revocation are important tools. 
We use our authority to revoke a visa immediately in circumstances in 
which we believe there is an immediate threat, regardless of the 
individual's location, after which we will notify the issuing post and 
interagency partners as appropriate. We are mindful, however, not to 
act unilaterally, but to coordinate expeditiously with our National 
security partners in order to avoid possible disruption of important 
investigations. In addition to the millions of visa applications we 
refuse each year, since 2001, the Department has revoked approximately 
160,000 visas, based on information that surfaced following visa 
issuance, for a variety of reasons. This includes nearly 11,000 visas 
prudentially revoked after information emerged post-issuance suggesting 
possible for suspected links to terrorism.
                             going forward
    We face dangerous and adaptable foes. We are dedicated to 
maintaining our vigilance and strengthening the measures we take to 
protect the American public. We will continue to apply state-of-the-art 
technology to vet visa applicants. While increasing our knowledge of 
threats, and our ability to identify and interdict those threats, the 
interagency acts in accordance with the rules and regulations agreed 
upon in key governance documents. These documents ensure a coordinated 
approach to our security and facilitate mechanisms for redress and 
privacy protection.
    Executive Order 13780 on Protecting the Nation from Foreign 
Terrorist Entry into the United States (E.O.) signed by the President 
on March 6, 2017, and the Presidential Memorandum on Heightened 
Screening, articulate the administration's commitment to rigorously 
enforce our immigration laws and continuously upgrade and refine our 
screening and vetting processes to keep the people of the United States 
safe. These actions range from interagency efforts to harmonize 
screening and vetting standards across multiple immigration programs to 
focusing on ways to improve our abilities to deport criminal aliens. 
Additionally, the Department recently instructed posts globally to 
develop criteria for identifying sets of visa applicant populations 
warranting increased scrutiny. We have likewise heightened vetting for 
any visa applicant that was ever present in ISIS-controlled territory, 
for example. In addition, we are working with the Departments of 
Homeland Security and Justice to implement these steps in compliance 
with all relevant court orders.
    We are taking several measures to confront developing threats and 
respond to recent terrorist incidents both overseas and in the United 
States.
    We constantly analyze our current processes, including security 
vetting, to identify areas where we could improve. We are working 
closely with DHS and the interagency to explore and analyze the use of 
social media screening of visa applicants. At the same time, we 
continue to explore methods and tools that could assist in this type of 
screening and potentially provide new methods to assess the credibility 
of certain information from applicants. We believe these endeavors will 
provide us insights to continue to ensure the visa process is as 
secure, effective, and efficient as possible.
    Information sharing with trusted foreign partners is an area that 
has seen significant development in recent years. For example, 
beginning in 2011 the Departments of State and Homeland Security 
implemented arrangements for systematic information sharing with 
Canada. The established processes provide for nearly real-time access 
to visa and immigration data through matching of fingerprints, as well 
as through biographic name checks for information that an applicant 
previously violated immigration laws, was denied a visa, or is a known 
or suspected terrorist. Canadian officers currently access the U.S. 
records of Syrian nationals seeking refugee resettlement in Canada, 
among other populations of visa and immigration applicants.
    As part of our long-term strategic planning to improve efficiency 
and accuracy in visa adjudications, we are investigating the 
applicability of advanced technology in data analysis, risk screening, 
and credibility assessment. Keeping abreast of high-tech solutions will 
help us reduce threats from overseas while keeping the United States 
open for business.
    I assure you that the Department of State continues to refine its 
intensive visa application and screening process, including personal 
interviews, employing analytic interview techniques, incorporating 
multiple biographic and biometric checks, and interagency coordination, 
all supported by a sophisticated global information technology network. 
We look forward to working with the committee on issues addressing our 
National security in a cooperative and productive manner.
                          visa waiver program
    The Visa Waiver Program (VWP) was established as a pilot program in 
1986 to more efficiently use U.S. Government resources. Since then, it 
has been steadily strengthened. The program enables nationals of 38 
participating countries to travel to the United States for tourism or 
business stays of 90 days or less without obtaining a visa but subject 
to vetting through the Electronic System for Travel Authorization 
(ESTA) that is equivalent to the checks done when issuing a visa. 
Approximately 20 million people enter the United States each year under 
this program, enabling the Department of State to focus more resources 
on visa applicants from countries that do not meet VWP's high security 
standards. The VWP enables the Department of State to focus more 
resources on visa applicants who merit additional scrutiny. It also 
allows us to benefit from information sharing with VWP countries.
    All travelers coming to the United States under the VWP undergo the 
same checks for ties to terrorism and are subject to the same multiple 
layers of security reviews as visa applicants, including fingerprint 
screening. While VWP travelers do not undergo a consular interview, 
they are required to provide certain biographic information for 
screening prior to travel through the Electronic System for Travel 
Authorization. Only citizens of VWP countries with an ESTA approved by 
DHS can travel to the United States under this program. Refugees, 
asylum seekers, and non-citizen residents of VWP countries cannot 
travel under VWP. The Department of State annually publishes the 
visitor visa refusal rates for every country. This information garners 
significant interest from countries aspiring to join VWP, as the 
refusal rate is the most visible of the VWP requirements.
    Members of the Visa Waiver Program are our closest and most 
essential partners on counterterrorism. They are currently Andorra, 
Australia, Austria, Belgium, Brunei, Chile, Czech Republic, Denmark, 
Estonia, Finland, France, Germany, Greece, Hungary, Iceland, Ireland, 
Italy, Japan, Latvia, Liechtenstein, Lithuania, Luxembourg, Malta, 
Monaco, Netherlands, New Zealand, Norway, Portugal, San Marino, 
Singapore, Slovakia, Slovenia, South Korea, Spain, Sweden, Switzerland, 
Taiwan, and the United Kingdom.
visa waiver program improvement and terrorist travel prevention act of 
                                  2015
    Under the Visa Waiver Program Improvement and Terrorist Travel 
Prevention Act of 2015, nationals of VWP countries who are also 
nationals of Iran, Iraq, Sudan, or Syria, or have traveled to or been 
present in Iran, Iraq, Sudan, Syria, Libya, Yemen, or Somalia on or 
after March 1, 2011 are no longer eligible for VWP travel and require a 
visa to travel to the United States.
    Those nationals who travelled to these countries for official or 
military service on behalf of a VWP country are statutorily exempt from 
the new requirement. Also, under the new Act, the Secretary of Homeland 
Security may waive these travel-related VWP restrictions if he 
determines that such a waiver is in the law enforcement or National 
security interests of the United States. As a general matter, certain 
types of travelers whose travel is in the U.S. National security 
interest might include employees of humanitarian organizations, 
journalists, and individuals who travel to Iraq or Iran for legitimate 
business purposes. Such waivers are granted only on a case-by-case 
basis. In fiscal year 2016, the Secretary of Homeland Security approved 
211 such waivers.
    Visa applications have increased by approximately 8 percent in Visa 
Waiver Program countries since these legislative changes took effect in 
early 2016. Our data indicate that through December 2016, we 
facilitated visa services for 60,000 travelers affected by them. For 
example, for those who need a U.S. visa for urgent business, medical, 
or humanitarian travel to the United States, U.S. embassies and 
consulates provide visa interview appointments on an expedited basis.

    Mr. Gallagher. Thank you, Mr. Ramotowski. We look forward 
to doing just that.
    Ms. Gambler, you are recognized for 5 minutes.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good afternoon, Chairman Gallagher, Ranking 
Member Watson Coleman, and Members of the task force. I 
appreciate the opportunity to testify at today's hearing to 
discuss GAO's work reviewing DHS's efforts to screen and 
inspect travelers seeking to come to the United States. Each 
year, millions of visitors legally enter the United States. 
Some of them enter with a nonimmigrant visa, while others enter 
the country under the Visa Waiver Program. Under this program, 
nationals from 38 countries can apply for admission to the 
United States as temporary visitors for business or pleasure 
for up to 90 days without obtaining a visa.
    GAO has a body of work addressing DHS and other agencies' 
efforts to screen travelers and manage and oversee the visa 
process and the Visa Waiver Program. My remarks today reflect 
our findings and recommendations related to these programs and 
efforts.
    First, with regard to CBP's screening efforts, CBP screens 
travelers coming to the United States and seeks to identify 
potentially high-risk travelers at the earliest point in the 
travel life cycle. CBP also operates three predeparture 
programs to help identify and interdict high-risk travelers 
before they board U.S.-bound flights. These three programs are 
preclearance, the immigration advisory and joint security 
programs, and the regional carrier liaison groups.
    Preclearance locations operate at foreign airports and 
serve as U.S. ports of entry. CBP officers at these locations 
inspect travelers and make admissibility determinations prior 
to an individual boarding a plane to the United States. Under 
the immigration advisory and joint security programs, CBP 
officers posted at foreign airports partner with air carriers 
and host country government officials to help prevent 
terrorists and other high-risk individuals from boarding U.S.-
bound flights. Regional carrier liaison groups are located and 
operate at domestic airports, and among other things, assist 
air carriers with questions regarding U.S. admissibility 
requirements and travel documents.
    CBP data indicated that in fiscal year 2015, these programs 
identified and interdicted approximately 22,000 high-risk air 
travelers. However, we found that while CBP has data and 
statistics on these programs, the agency has not evaluated the 
effectiveness of these programs as a whole, including having 
performance measures and baselines to assess whether the 
programs are achieving their stated goals. We recommended that 
CBP develop and implement such measures and baselines to better 
measure the effectiveness of these predeparture programs, and 
DHS concurred.
    Second, with regard to the Visa Security Program, we 
reported on efforts to expand the program and address 
challenges in its operations. Under this program, ICE deploys 
personnel to certain U.S. embassies and consulates to assist 
the Department of State's consular officers with security 
reviews of visa applications, among other things.
    In our 2011 report on this program, we identified various 
management and oversight challenges, such as limited guidance 
regarding interactions between ICE officials and consular 
officers, lack of comprehensive data for performance measures 
to accurately evaluate the program, and variation from post to 
post in the training of consular officers by ICE agents. We 
also found that ICE did not track information on the time ICE 
agents spent on non-Visa Security Program activities. We have 
on-going work reviewing the Visa Security Program and visa 
security efforts more broadly, and we plan to report on the 
results of our work later this year.
    Third, with regard to the Visa Waiver Program, last year we 
reported on DHS's oversight of the program. In particular, we 
reported that all 38 countries had entered into three 
agreements required under the program to: No. 1, report lost 
and stolen passports; No. 2, share identity information about 
known or suspected terrorists; and No. 3, share criminal 
history information. However, not all countries had shared such 
information.
    In August 2015, DHS established a new requirement for Visa 
Waiver Program countries to implement the latter two 
agreements. However, DHS did not establish time frames for 
instituting these requirements.
    We recommended that DHS specify time frames for working 
with participating countries to address additional program 
requirements, including the requirement to fully implement 
these agreements, and DHS concurred with our recommendation.
    In closing, our work on DHS's efforts to screen travelers 
and manage the Visa Security Program and the Visa Waiver 
Program has identified findings and recommendations to help 
strengthen management and oversight of these programs and 
efforts. DHS has actions planned or under way to address a 
number of our recommendations, and we will continue to monitor 
DHS's efforts.
    This concludes my oral statement, and I am pleased to 
answer any questions Members have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                              May 3, 2017
    Chairman Gallagher, Ranking Member Watson Coleman, and Members of 
the task force:
    I am pleased to be here today to discuss GAO's body of work on U.S. 
Government programs and activities related to screening foreign 
nationals seeking to travel to the United States on a temporary basis--
either with a nonimmigrant visa, or in some cases, without a visa.\1\ 
Each year, millions of such temporary visitors legally enter the United 
States. From fiscal year 2010 through fiscal year 2015, the Department 
of State (State) issued more than 52 million visas for business travel, 
pleasure, or for foreign and cultural exchange student programs, among 
other things. In addition, from fiscal year 2010 through fiscal year 
2015, more than 116 million visitors were admitted to the United States 
under the Visa Waiver Program (VWP), which allows nationals from 38 
countries to apply for admission to the country as temporary visitors 
for business or pleasure without first obtaining a visa from a U.S. 
embassy or consulate abroad.\2\
---------------------------------------------------------------------------
    \1\ Throughout this statement we generally use the term ``foreign 
national'' to refer to an ``alien,'' which is defined under U.S. 
immigration law as any person who is not a U.S. citizen or national. 
See 8 U.S.C. Sec. 1101(a)(3). In addition, temporary visitors are 
foreign nationals present in the United States on a temporary basis 
pursuant to a specific nonimmigrant category (see 8 U.S.C. 
Sec. 1101(a)(15); see also 8 C.F.R. Sec. 214.1(a)(1)-(2)), including 
those who are allowed to seek admission without a visa, such as Mexican 
nationals and citizens of Canada and the British Overseas Territory of 
Bermuda (and certain residents of other adjacent islands, such as the 
Bahamas) under certain circumstances, as well as Visa Waiver Program 
(VWP) participants. See 8 C.F.R. Sec. Sec. 212.1, 214.6(d); 22 C.F.R. 
Sec. Sec. 41.0 to 41.3. Foreign nationals seeking permanent status in 
the United States must generally obtain an immigrant visa, which 
provides a path to lawful permanent residency. For the purposes of this 
statement, we use the term ``visa'' in reference to a nonimmigrant 
visa.
    \2\ See 8 U.S.C. Sec. 1187. The VWP was established in 1986 as a 
pilot program, under which the nationals of up to eight designated 
countries which extended reciprocal privileges to U.S. citizens and 
nationals and fulfilled certain other program criteria, would not need 
a visa for admission to the United States as temporary visitors during 
the pilot program period. See Immigration Reform and Control Act of 
1986, Pub. L. No. 99-603, tit. III, pt. B, Sec. 313, 100 Stat. 3359, 
3435-39. VWP became a permanent program in October 2000. See Visa 
Waiver Permanent Program Act, Pub. L. No. 106-396, tit. I, Sec. 101, 
114 Stat. 1637 (2000).
---------------------------------------------------------------------------
    The Department of Homeland Security (DHS) seeks to identify and 
interdict travelers who are potential security threats to the United 
States, such as foreign fighters and potential terrorists, human 
traffickers, drug smugglers, and otherwise inadmissible persons, at the 
earliest possible point in the travel life cycle to make the Nation's 
physical borders the last, not the first, line of defense.\3\ DHS 
adjudicates petitions for certain visa categories, and also has certain 
responsibilities for strengthening the security of the visa process, 
including establishing visa policy and managing the VWP. In particular, 
DHS's U.S. Customs and Border Protection (CBP) is tasked with, among 
other duties, securing U.S. borders and processing all travelers on 
U.S.-bound flights; inspecting all people entering or applying for 
admission to the United States; and screening VWP applicants to 
determine their eligibility to travel to the United States under the 
program. In addition, DHS's U.S. Immigration and Customs Enforcement 
(ICE) oversees the Visa Security Program (VSP) under which it deploys 
officials to certain U.S. embassies and consulates to strengthen the 
visa process by working with State officials in reviewing visa 
applications. State is responsible for visa adjudication and issuance 
for foreign nationals seeking admission to the United States and is 
responsible for managing the consular officer corps and its functions 
at over 220 visa-issuing posts overseas.
---------------------------------------------------------------------------
    \3\ Foreign fighters are individuals who leave home, travel abroad 
to terrorist safe havens, and join or assist violent extremist groups.
---------------------------------------------------------------------------
    Foreign nationals who wish to come to the United States on a 
temporary basis and are not citizens or nationals of countries that 
participate in the VWP must generally obtain a visa authorizing their 
travel. U.S. law provides for the temporary admission of various 
categories of nonimmigrants, such as tourists, foreign students, 
diplomats, and temporary workers, who are admitted for an authorized 
period of stay, consistent with any time limitation and other terms of 
admission. The process for determining who will be issued or refused a 
visa contains several steps, including document reviews; collection of 
biometrics (fingerprints and full-face photographs); cross-referencing 
an applicant's name and biometrics against multiple databases 
maintained by the U.S. Government; and in-person interviews. Personal 
interviews with consular officers are required by law for most foreign 
nationals seeking visas. For an overview of the visa process, see 
figure 1.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Prior to this step, some nonimmigrant visas require petitioners to 
file a petition on behalf of the beneficiary, or on their own behalf, 
as appropriate, with the Department of Homeland Security (DHS). DHS is 
responsible for approving or denying the petition, notifying the 
petitioner, and sending the approved petition to the Department of 
State.
    The VWP was established in 1986 to facilitate the legitimate travel 
of visitors for business or pleasure to the United States. Qualifying 
nationals from the 38 countries participating in the VWP--for example, 
France, Germany, and Hungary--may travel without a visa to the United 
States for business or pleasure stays of up to 90 days.\4\ In 2007, 
Congress passed the Implementing Recommendations of the 
9/11 Commission Act of 2007, which mandated several changes to 
modernize the program through enhanced bilateral cooperation on 
critical counterterrorism and information-sharing initiatives, support 
and expansion of tourism and business opportunities to enhance long-
term competitiveness, and strengthening of bilateral relationships.\5\ 
In particular, the U.S. Government began requiring each VWP country to 
enter into a
---------------------------------------------------------------------------
    \4\ The 38 VWP countries include Taiwan. Although the United States 
does not have diplomatic relations with Taiwan, the Taiwan Relations 
Act provides that ``[w]henever the laws of the United States refer or 
relate to foreign countries, nations, States, governments, or similar 
entities, such terms shall include and such laws shall apply with 
respect to Taiwan.'' Pub. L. No. 96-8, Sec. 4(b), 93 Stat. 14, 15 
(1979) (classified at 22 U.S.C. Sec. 3303).
    \5\ Pub. L. No. 110-53, tit. VII, subtit. B, Sec. 711, 121 Stat. 
266, 338-45.
---------------------------------------------------------------------------
  <bullet> Lost and Stolen Passport (LASP) agreement to report 
        information about the theft or loss of passports,
  <bullet> Homeland Security Presidential Directive 6 (HSPD-6) 
        arrangement to share watch list information about known or 
        suspected terrorists,\6\ and
---------------------------------------------------------------------------
    \6\ Among other things, Homeland Security Presidential Directive/
HSPD-6--Integration and Use of Screening Information, issued on 
September 16, 2003, directed the Secretary of State to develop a 
proposal for enhancing cooperation with certain foreign governments, 
beginning with those countries for which the United States has waived 
visa requirements, to establish appropriate access to terrorism 
screening information of the participating governments.
---------------------------------------------------------------------------
  <bullet> Preventing and Combating Serious Crime (PCSC) agreement to 
        establish frameworks for enhanced law enforcement cooperation, 
        including sharing of criminal history information.
    The Visa Waiver Program Improvement and Terrorist Travel Prevention 
Act of 2015, which became law in December of that year, amended certain 
requirements to provide enhanced security measures for the program, 
among other purposes.\7\
---------------------------------------------------------------------------
    \7\ Pub. L. No. 114-113, Div. O, tit. II, 129 Stat. 2242, 2988-95. 
The law now prohibits individuals who are nationals of VWP countries 
who have been present in Iran, Iraq, Syria, Sudan, Libya, Somalia, or 
Yemen on or after March 1, 2011, from traveling or being admitted to 
the United States through the VWP, with certain exceptions. According 
to CBP, these new eligibility requirements do not bar travel to the 
United States; instead, a national of a VWP country who does not meet 
the requirements must obtain a visa for travel to the United States. 
The law also now requires that countries fully implement passenger 
information exchange agreements in order to participate in the VWP. 
Additional requirements have been added regarding machine-readable, 
electronic passports for individuals; country certifications of a 
mechanism to validate passports; termination of designation for 
countries that fail to share information or fail to screen individuals 
admitted to, or departing, the country for unlawful activity; 
designation of high-risk program countries that may be suspended from 
the program; and other enhancements to the electronic system for travel 
authorization.
---------------------------------------------------------------------------
    My testimony discusses: (1) CBP programs aimed at preventing high-
risk travelers from boarding U.S.-bound flights, (2) ICE's management 
of the VSP, and (3) DHS's oversight of the VWP. This testimony is based 
on our prior reports, in particular, those published in March 2011, May 
2016, and January 2017.\8\ For these reports, we examined program 
documentation, such as standard operating procedures and agencies' 
policies and guidance, as well as agency data on program performance. 
We also interviewed DHS and State officials, among others, in 
headquarters and at U.S. embassies and consulates. Additional details 
on the scope and methodology are available in our published reports. In 
addition, this statement contains updates to selected information from 
these reports. For the updates, we collected information from DHS on 
actions it has taken to address findings and recommendations made in 
prior reports on which this statement is based. All of our work was 
conducted in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \8\ GAO, Border Security: CPB Aims to Prevent High-Risk Travelers 
from Boarding U.S.-Bound Flights, but Needs to Evaluate Program 
Performance, GAO-17-216 (Washington, DC: Jan. 24, 2017); Visa Waiver 
Program: DHS Should Take Steps to Ensure Timeliness of Information 
Needed to Protect U.S. National Security, GAO-16-498 (Washington, DC: 
May 5, 2016); and, Border Security: DHS's Visa Security Program Needs 
to Improve Performance Evaluation and Better Address Visa Risk World-
wide, GAO-11-315 (Washington, DC: Mar. 31, 2011).
---------------------------------------------------------------------------
cbp's air predeparture programs interdict high-risk air travelers, but 
          cbp has not fully assessed the programs' performance
CBP Identifies and Interdicts High-Risk Travelers Before They Board 
        U.S.-Bound Flights
    As we reported in January 2017, CBP electronically vets all 
travelers before they board U.S.-bound flights and continues to do so 
until they land at a U.S. port of entry.\9\ Through these vetting 
efforts, CBP seeks to identify high-risk travelers from the millions of 
individuals who travel to the United States each year. As we reported 
in January 2017, CBP's vetting and targeting efforts are primarily 
conducted by its National Targeting Center (NTC) and entail: (1) 
Traveler data matching and analysis, (2) rules-based targeting, and (3) 
recurrent vetting. Specifically:
---------------------------------------------------------------------------
    \9\ GAO-17-216. Ports of entry are facilities that provide for the 
controlled entry into or departure from the United States. 
Specifically, a port of entry is any officially designated location 
(seaport, airport, or land border location) where DHS officers inspect 
persons entering or applying for admission into, or departing the 
United States pursuant to U.S. immigration law.
---------------------------------------------------------------------------
  <bullet> CBP's primary method of identifying high-risk individuals is 
        through the comparison of travelers' information (such as name, 
        date of birth, and gender)\10\ against records extracted from 
        U.S. Government databases, including the Terrorist Screening 
        Database (TSDB)--the U.S. Government's consolidated terrorist 
        watch list.\11\ Traveler data matching focuses on identifying 
        known high-risk individuals--that is, individuals who may be 
        inadmissible to the United States under U.S. immigration law or 
        who may otherwise pose a threat to homeland or National 
        security. CBP's primary tool for vetting and targeting 
        travelers is the Automated Targeting System (ATS), which is a 
        computer-based enforcement and support system that compares 
        traveler information against intelligence and law enforcement 
        data to identify high-risk travelers. Traveler data matching 
        occurs throughout the travel process and, upon a positive or 
        possible match, CBP officers can select these individuals for 
        further vetting, interviewing, and inspection.
---------------------------------------------------------------------------
    \10\ According to CBP officials, information from both the Advance 
Passenger Information System, which includes biographical information 
such as full name, date of birth, gender, flight number, date of 
arrival and departure, citizenship, and passport/alien registration 
card number, among others, and the Passenger Name Record, which refers 
to reservation information contained in an air carrier's electronic 
reservation system and/or departure control system that sets forth the 
identity and travel plans of each traveler or group of travelers 
included under the same reservation record, are utilized in the 
targeting and vetting of individuals attempting to travel to the United 
States. See 49 U.S.C. Sec. 44909; 19 C.F.R. Sec. Sec. 122.49a, 122.49d.
    \11\ Information in the TSDB comes from two sources: The National 
Counterterrorism Center, which provides information on known or 
suspected international terrorists, and the Federal Bureau of 
Investigation, which provides information about known or suspected 
domestic terrorists. For more information about the process by which 
the U.S. Government manages this watch list, see GAO, Terrorist 
Watchlist: Routinely Assessing Impacts of Agency Actions Since the 
December 29, 2009, Attempted Attack Could Help Inform Future Efforts, 
GAO-12-476 (Washington, DC: May 31, 2012).
---------------------------------------------------------------------------
  <bullet> CBP's rules-based targeting efforts seek to identify unknown 
        high-risk travelers--that is, travelers for whom U.S. 
        Government entities do not have available derogatory 
        information directly linking them to terrorist activities or 
        any other actions that would make them potentially inadmissible 
        to the United States but who may present a threat and thus 
        warrant additional scrutiny. CBP identifies unknown high-risk 
        individuals by comparing their information against a set of 
        targeting rules based on intelligence, law enforcement, and 
        other information. NTC officials stated that these rules have 
        identified potential high-risk travelers, including potential 
        foreign fighters. Rules-based targeting evaluates travelers 
        during the travel process and, in some cases, in advance of the 
        travel process. If a traveler is a rule ``hit,'' this 
        individual can be selected for further vetting, interviewing, 
        and inspection.\12\
---------------------------------------------------------------------------
    \12\ In general, when a traveler is identified through rules-based 
targeting, the traveler is considered to have hit a rule.
---------------------------------------------------------------------------
  <bullet> CBP supports its traveler data matching and rules-based 
        targeting efforts through the use of recurrent vetting. NTC's 
        vetting, targeting, and traveler data matching activities in 
        ATS run 24 hours a day and 7 days a week and automatically scan 
        updated traveler information, when available. This process is 
        to ensure that new information that affects a traveler's 
        admissibility is identified in near-real time. Recurrent 
        vetting occurs throughout the travel process and continues 
        until a traveler arrives at a domestic port of entry. For 
        example, after checking into a foreign airport, a traveler may 
        have his or her visa revoked for a security or immigration-
        related violation. Due to recurrent vetting, CBP would be 
        alerted to this through ATS and could take action, as 
        appropriate.
CBP's Air Predeparture Programs Interdict High-Risk Travelers on U.S.-
        Bound Flights, but CBP Has Not Evaluated Overall Effectiveness 
        of Air Predeparture Programs
    As we reported in January 2017, throughout the travel process, 
CBP's predeparture programs use the results of NTC's efforts to 
identify and interdict high-risk individuals destined for the United 
States while they are still overseas; however, we found that CBP had 
not evaluated the effectiveness of its predeparture programs as a 
whole, including implementing a system of performance measures and 
baselines to assess whether the programs are achieving their stated 
goals.\13\
---------------------------------------------------------------------------
    \13\ GAO-17-216.
---------------------------------------------------------------------------
    CBP operates three air predeparture programs that are responsible 
for all U.S.-bound air travelers--Preclearance; The Immigration 
Advisory Program (IAP) and Joint Security Program (JSP); and the 
regional carrier liaison groups (RCLG). As we reported in January 2017, 
CBP data indicated that these programs identified and ultimately 
interdicted approximately 22,000 high-risk air travelers in fiscal year 
2015, the most recent data available at the time of our review. 
Information on individuals who the NTC identifies through traveler data 
matching or rules-based targeting, including recurrent vetting, is 
compiled automatically through ATS into a daily high-priority list, or 
traveler referral list. CBP officers at the NTC review the traveler 
referral list for accuracy and to remove, if possible, any 
automatically-generated matches determined to not be potential high-
risk individuals. After this review, CBP officers at the NTC use ATS to 
send the traveler referral list to officers at each Preclearance, IAP, 
JSP, and RCLG location, as shown in figure 2.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Preclearance.--Preclearance locations operate at foreign airports 
and serve as U.S. ports of entry. Preclearance operations began in 1952 
in Toronto to facilitate trade and travel between the United States and 
Canada. As of January 2017, CBP operated 15 air Preclearance locations 
in six countries.\14\ Through the Preclearance program, uniformed CBP 
officers at a foreign airport exercise U.S. legal authorities to 
inspect travelers and luggage and make admissibility determinations 
prior to an individual boarding a plane to the United States.\15\ 
According to CBP officials, an inspection at a Preclearance location is 
the same inspection an individual would undergo at a domestic port of 
entry, and officers conducting Preclearance inspections exercise the 
same authority as officers at domestic ports of entry to approve or 
deny admission into the United States.\16\ As a result, travelers 
arriving at domestic air ports of entry from Preclearance locations do 
not have to be re-inspected upon entry.\17\ According to CBP data, in 
fiscal year 2015, CBP officers at Preclearance locations determined 
that 10,648 air travelers were inadmissible out of the approximately 16 
million air travelers seeking admission to the United States through a 
Preclearance location. In addition to requiring that all travelers 
undergo a primary inspection, CBP officers in these locations also 
referred almost 290,000 individuals for secondary inspection.\18\
---------------------------------------------------------------------------
    \14\ See 19 C.F.R. Sec. 101.5. CBP's Preclearance location in 
Victoria, Canada, only processes maritime travelers and, as a result, 
we did not include it in our January 2017 report. See GAO-17-216.
    \15\ See 8 U.S.C. Sec. 1103(a)(7); 19 U.S.C. Sec. 1629. See also 8 
C.F.R. Sec. Sec. 235.1, 235.5; 19 C.F.R. Sec. Sec. 148.22, 162.6, 
162.8; and Preclearance Authorization Act of 2015, Pub. L. No. 114-125, 
tit. VIII, subtit. B, Sec. 813, 130 Stat. 122, 217-18 (2016) 
(classified at 19 U.S.C. Sec. 4432) (authorizing the Secretary of 
Homeland Security to establish and maintain CBP preclearance operations 
in a foreign country).
    \16\ Individuals denied admission to the United States at a 
Preclearance location are not permitted to proceed beyond the point of 
inspection and, thus, are unable to board a flight to the United 
States.
    \17\ According to CBP officials, in accordance with CBP's current 
Preclearance agreements and processes, CBP officers retain the 
authority to inspect these travelers and their accompanying goods or 
baggage after arriving in the United States should further inspection 
be warranted.
    \18\ Primary inspection refers to the procedure that CBP uses to 
conduct an initial inspection of individuals seeking to enter the 
United States to determine if additional review or scrutiny is needed 
to ensure compliance with U.S. law. Persons who need additional 
scrutiny and persons selected as part of a random selection process are 
subjected to a more detailed review called a secondary inspection. This 
involves, for example, a closer inspection of travel documents and 
possessions, additional questioning by CBP officers, and cross 
references through multiple law enforcement databases to verify the 
traveler's identity, background, purpose for entering the country, and 
other appropriate information.
---------------------------------------------------------------------------
    Immigration Advisory Program (IAP) and Joint Security Program 
(JSP).--IAP and JSP operate at 9 and 2 foreign airports, respectively, 
as of January 2017. According to CBP officials, under this program, 
unarmed, plainclothes CBP officers posted at foreign airports partner 
with air carriers and host country government officials to help prevent 
terrorists and other high-risk individuals from boarding U.S.-bound 
flights by vetting and interviewing them before travel.\19\ According 
to CBP program documentation, CBP established IAP in 2004 to prevent 
terrorists, high-risk travelers, and improperly documented travelers 
from boarding airlines destined to the United States. Building on the 
IAP concept, CBP established JSP in 2009 to partner with host country 
law enforcement officials to identify high-risk travelers. CBP officers 
at IAP and JSP locations have the ability to question travelers and 
review their travel documents. They are to act in an advisory manner to 
the air carriers and host governments and do not have authority to deny 
boarding to individuals on U.S.-bound flights or fully inspect 
travelers or their belongings. IAP and JSP officers are authorized by 
CBP to make recommendations to airlines as to whether to board or deny 
boarding (known as a no-board recommendation) to selected travelers 
based on their likely admissibility status upon arrival to the United 
States. The final decision to board travelers, however, lies with the 
carriers. According to CBP data, CBP officers at IAP and JSP locations 
made 3,925 no-board recommendations in fiscal year 2015 for the 
approximately 29 million air travelers bound for the United States from 
such locations. During this same time period, CBP data indicated 1,154 
confirmed encounters with individuals on the TSDB, including 106 on the 
No-Fly List.\20\
---------------------------------------------------------------------------
    \19\ See 8 U.S.C. Sec. 1225a(b).
    \20\ A confirmed encounter refers to when a representative of the 
U.S. Government (in this case a CBP officer) comes into contact, either 
through physical interviewing or inspection or through electronic 
vetting, with an individual whose identity is confirmed as a match to a 
record in the TSDB. The No-Fly List, which is a subset of the TSDB, 
identifies individuals prohibited from boarding flights to, from, 
within, or overflying the United States.
---------------------------------------------------------------------------
    Regional Carrier Liaison Groups (RCLG).--RCLGs are located and 
operate at three domestic airports--Miami International Airport, John 
F. Kennedy International Airport, and Honolulu International Airport. 
CBP established RCLGs in 2006 to assist air carriers with questions 
regarding U.S. admissibility requirements and travel document 
authenticity. According to CBP officials, RCLGs are responsible for 
coordinating with air carriers on all actionable referrals from NTC on 
U.S.-bound travelers departing from an airport without an IAP, JSP, or 
Preclearance presence. Each RCLG is assigned responsibility for 
travelers departing out of a specific geographic location.\21\ Similar 
to IAP and JSP, CBP officers in RCLGs also make no-board 
recommendations, as appropriate, to air carriers. CBP officers at RCLGs 
do not have authority to make admissibility determinations about U.S.-
bound air travelers, and the final decision to board or not board a 
traveler lies with the carrier. CBP officers working at the three RCLGs 
made 7,664 no-board recommendations in fiscal year 2015 for the 
approximately 59 million travelers bound for the United States from 
locations within the RCLGs' spheres of responsibility. During this time 
period, CBP data indicated that RCLGs also reported 1,634 confirmed 
encounters with individuals in the TSDB, including 119 on the No-Fly 
List.
---------------------------------------------------------------------------
    \21\ RCLGs are not responsible for travelers departing from 
Preclearance locations.
---------------------------------------------------------------------------
    In January 2017, we reported that CBP had not evaluated the 
effectiveness of its predeparture programs as a whole, including 
implementing a system of performance measures and baselines to assess 
whether the programs were achieving their stated goals.\22\ We reported 
that CBP had taken some initial steps to measure the performance of 
these programs. Specifically, CBP officials told us that they had 
collected a large quantity of data and statistics regarding the actions 
of their predeparture programs and had done so since program inception 
for all programs. However, due to changes in operational focus, 
technology updates, and the use of separate data systems at program 
locations, CBP had not collected consistent data across all of its 
predeparture programs. As a result, CBP did not have baseline data on 
which to measure program performance. However, CBP officials stated at 
the time that they had updated and uniform data collection systems that 
were consistent across all predeparture programs, which would enable 
CBP to identify performance baselines from fiscal year 2015 onward. 
According to senior CBP officials, some of the results of these 
programs were not easily measured. Officials also noted that relying on 
data alone may not always present the most accurate picture of the true 
impact of predeparture programs because changes to the travel process 
or other factors may impact the programs in ways that are not fully 
captured by the data. However, on the basis of our analysis of CBP's 
documentation, including official hearing statements, and interviews 
with program officials, we found that CBP used these data as indicators 
of the programs' success.
---------------------------------------------------------------------------
    \22\ GAO-17-216.
---------------------------------------------------------------------------
    According to GAO's Program Evaluation Guide, which articulates best 
practices for program evaluation, a program evaluation is a systematic 
study using research methods to collect and analyze data to assess how 
well a program is working and why.\23\ Moreover, consistent with 
requirements outlined in the Government Performance and Results Act of 
1993 (GPRA), as updated by the GPRA Modernization Act of 2010, 
performance measurement is the on-going monitoring and reporting of 
program accomplishments, particularly toward pre-established goals, and 
agencies are to establish performance measures to assess progress 
toward goals.\24\ Agencies can use performance measurement to make 
various types of management decisions to improve programs and results, 
such as developing strategies and allocating resources, and identify 
problems and take corrective action. Therefore, we recommended that CBP 
develop and implement a system of performance measures and baselines 
for each program to help ensure that these programs are achieving their 
intended goals. By using data from fiscal year 2015, for example, to 
develop initial baselines, CBP could better measure program performance 
toward meeting stated goals. In response, CBP established a working 
group to develop and implement a system of performance measures and 
baselines to evaluate the effectiveness of CBP's predeparture programs. 
As of December 2016, the working group was gathering baseline data from 
fiscal year 2015 to compare with fiscal year 2016 data. In February 
2017, CBP officials stated that the working group had identified 
potential performance measures but needs to further refine them. CBP 
officials stated that they expect to complete this work by the end of 
June 2017.
---------------------------------------------------------------------------
    \23\ GAO, Designing Evaluations: 2012 Revision, GAO-12-208G 
(Washington, DC: January 2012). The best practices outlined in GAO-12-
208G are based on GAO studies, policy documents, and program evaluation 
literature. To ensure the guide's competence and usefulness, drafts 
were reviewed by selected GAO, Federal and State agency evaluators, and 
evaluation authors and practitioners from professional consulting 
firms.
    \24\ See, generally, Pub. L. No. 103-62, 107 Stat. 285 (1993) 
(GPRA) and Pub. L. No. 111-352, 124 Stat. 3866 (2011) (updating GPRA). 
In particular, see 31 U.S.C. Sec. 1115 (relating to agency performance 
plans and performance measurement).
---------------------------------------------------------------------------
 ice aims to strengthen screening of visa applicants through its visa 
                            security program
    The Homeland Security Act of 2002 authorized DHS to assign officers 
to each diplomatic and consular post at which visas are issued, and 
also authorized DHS to immediately assign personnel to Saudi Arabia to 
review all visa applications prior to final adjudication.\25\ In 
response, DHS implemented the Visa Security Program (VSP) in 2003, and 
as of March 2016, ICE had established 26 visa security units in 20 
countries. VSP aims to prevent terrorists and otherwise inadmissible 
travelers from attempting to enter the United States by screening visa 
applicants before the travel process begins. When reviewing 
applications for visas under VSP, ICE screens applicant information to 
identify applicants that potentially match records of individuals who 
are known or suspected threats to the United States or have immigration 
violations or derogatory information related to their criminal 
histories. In accordance with the Homeland Security Act of 2002, DHS 
officers assigned overseas are authorized to perform the following 
functions:
---------------------------------------------------------------------------
    \25\ Pub. L. No. 107-296, tit. IV, subtit. C, Sec. 428(e), (i), 116 
Stat. 2135, 2191 (classified at 6 U.S.C. Sec. 236(e), (i)).
---------------------------------------------------------------------------
  <bullet> provide expert advice and training to consular officers 
        regarding specific security threats relating to the 
        adjudication of individual visa applications or classes of 
        applications,
  <bullet> review any such visa applications either on the initiative 
        of the employee of the department or at the request of a 
        consular officer, or other persons charged with adjudicating 
        such applications, and
  <bullet> conduct investigations with respect to consular matters 
        under the jurisdiction of the Secretary of Homeland 
        Security.\26\
---------------------------------------------------------------------------
    \26\ See 6 U.S.C. Sec. 236(e)(2).
---------------------------------------------------------------------------
    In March 2011, we reported, among other things, on DHS's efforts to 
expand VSP and challenges to VSP operations overseas.\27\ For example, 
we found that training of consular officers by VSP agents varied from 
post to post, with some consular officers at some posts receiving no 
training. Therefore, we recommended that DHS issue guidance requiring 
ICE to provide training for consular officers. DHS concurred and issued 
guidance to enhance the training of consular officers by VSP offices 
abroad.
---------------------------------------------------------------------------
    \27\ GAO-11-315.
---------------------------------------------------------------------------
    We also found that ICE did not gather comprehensive data on all the 
performance measures needed to evaluate the VSP mission objectives and 
that the data that ICE collected on VSP activities were limited by 
inconsistencies. Therefore, we recommended that ICE collect reliable 
data to allow it to accurately evaluate VSP performance. DHS did not 
concur with this recommendation and stated that VSP captured all the 
required performance metrics. However, as we reported, we determined 
that ICE was collecting some data on the required performance measures, 
but that the data were not sufficient to accurately demonstrate the 
progress made toward the program's stated objectives. We continue to 
believe that without collecting comprehensive data on performance 
measures, DHS cannot accurately demonstrate progress of VSP in 
enhancing National security. In addition, we found that VSP agents 
performed various investigative and administrative functions beyond 
their visa security responsibilities, which limited their time spent on 
visa security activities, and ICE did not track this information in its 
tracking system, making it unable to identify the time spent on 
investigative and administrative functions. Therefore, we recommended 
that ICE develop a mechanism to track the amount of time its agents 
spent on visa security activities and other investigations to determine 
appropriate staffing levels and resource needs for VSP operations. DHS 
did not concur with our recommendation and stated that ICE tracked case 
investigation hours through its case management system, and that adding 
the metric to the VSP tracking system would be redundant. However, we 
found at the time, according to ICE documentation, that ICE could not 
accurately determine the amount of time that VSP agents spent on 
investigative and visa security activities because ICE did not 
distinguish between the hours logged by VSP agents and hours logged by 
other ICE officials at posts abroad and that ICE did not maintain 
accurate data on the time VSP agents spent on visa security activities 
at posts.
    ICE did not take action to implement these recommendations and we 
continue to believe that it needs to take steps to address issues we 
identified. We have on-going work assessing DHS, State, and other U.S. 
agency efforts to strengthen the security of the visa process, 
including oversight of VSP, in which we plan to follow up on the 
findings and recommendations from our March 2011 report related to 
ICE's efforts to enhance VSP performance measurement, among other 
things. We plan to report later this year on the results of this work.
 all vwp countries have entered into information-sharing agreements or 
      equivalents, but not all are sharing information as required
    In May 2016, among other things, we reported that all 38 countries 
participating in the VWP had entered into the three types of required 
information-sharing agreements, or their equivalents, to: (1) Report 
lost and stolen passports, (2) share identity information about known 
or suspected terrorists, and (3) share criminal history 
information.\28\ However, we reported that not all countries had shared 
information through two of the agreements. Specifically, we reported 
that all VWP countries reported passport information through the first 
agreement, but about one-third of VWP countries were not sharing 
terrorist identity information through the second agreement and about 
one-third of the countries had not yet shared criminal history 
information through the third agreement. Although U.S. agencies receive 
law enforcement and National security information from VWP countries 
through other means, such as multilateral entities, the U.S. Government 
identified the information-sharing agreements as critical for 
protecting the United States from nationals of VWP countries who might 
present a threat. For example, as we reported, information provided 
through HSPD-6 arrangements has enhanced U.S. traveler-screening 
capabilities and improved U.S. agencies' ability to prevent known and 
suspected terrorists from traveling to the United States. Prior to the 
December 2015 enactment of the Visa Waiver Program Improvement and 
Terrorist Travel Prevention Act of 2015, U.S. law required VWP 
countries to enter into, but did not specifically require that 
countries implement, the information-sharing agreements. DHS announced 
in August 2015 that it had developed a new requirement that countries 
implement the agreements by sharing information.\29\ However, as we 
reported, DHS had not specified time frames for working with VWP 
countries to institute this and other new VWP security requirements. In 
May 2016, we recommended that DHS specify time frames for working with 
VWP countries to institute the additional VWP security requirements, 
including the requirement that the countries fully implement agreements 
to share information about known or suspected terrorists through the 
countries' HSPD-6 arrangements and PCSC agreements with the United 
States. DHS concurred with the recommendation and, as of April 2017, 
reported that officials are continuing to work with VWP countries on 
time frames for implementing program requirements.
---------------------------------------------------------------------------
    \28\ GAO-16-498. In this statement, such required agreements are 
referred to as both agreements and arrangements.
    \29\ See Pub. L. No. 114-113, div. O, tit. II, Sec. 204(c)-(d), 129 
Stat. at 2991-92 (requiring countries to fully implement information-
sharing agreements in order to participate in the VWP); 8 U.S.C. 
Sec. 1187(c)(2)(F).
---------------------------------------------------------------------------
    Chairman Gallagher, Ranking Member Watson Coleman, and Members of 
the task force, this concludes my prepared statement. I would be 
pleased to respond to any questions that you may have.

    Mr. Gallagher. Thank you so much, Ms. Gambler. I guess sort 
of going off that, one of the last points you made, Mr. 
Dougherty, would you agree with GAO's assessment that one-third 
of VWP countries are not currently in compliance with their 
obligations? What happens when DHS discovers a country to be in 
noncompliance or lacking in full implementation of their 
obligations?
    Mr. Dougherty. DHS, in the last GAO report, had agreed with 
recommendations that GAO had made on the remarks made here. Our 
point at this point in time is that the countries that are in 
the Visa Waiver Program are in compliance. There are many ways 
that DHS can engage those program countries to get further 
compliance.
    We engage them in many ways. Our assessments are 
ordinarily--take place by going to those countries and looking 
for them to make enhancements that we know that they can make. 
So the Department is very interested in making sure that all 
countries are current, and that is our position right now is 
that the countries within the Visa Waiver Program are compliant 
with both HSPD-6 and the other agreements that we expect from 
them.
    [Additional information follows:]

    That assessment is not current. The May 2016 GAO report provided a 
snapshot of how many countries were meeting the requirements for formal 
information sharing of terrorist and serious criminal identities 
immediately following the enactment of the enhanced requirements under 
the VWP Improvement and Terrorist Travel Prevention Act of 2015. 
Congress passed the Act in December 2015, and GAO's data collection for 
this audit ended in January 2016. DHS concurred with GAO's 
recommendation to engage with VWP countries, where needed, to ensure 
that they meet, what were at the time, newly enacted requirements.
    DHS, in coordination with the Departments of State and Justice, has 
implemented GAO's recommendation to great success. Today, all VWP 
countries have arrangements for sharing terrorist identities under 
Homeland Security Presidential Directive-6 (HSPD-6). All VWP countries 
also have signed Preventing and Combatting Serious Crime (PCSC) or 
equivalent agreements, with six countries still needing to ratify. In 
addition, these formal tools for information sharing supplement 
existing informal channels that exist between the United States and 
each VWP country and which DHS verifies to be occurring as part of its 
VWP country assessments.

    Mr. Gallagher. How often are those reviews conducted?
    Mr. Dougherty. Ordinarily, they are every 2 years, but if 
we find that somebody is not quite up to speed, we can 
accelerate that and engage in more dialog with them.
    Mr. Gallagher. Is that--if you find someone who is not up 
to speed or noncompliant, is there a formal process for 
addressing that or is it more an informal, hey, this is a 
problem----
    Mr. Dougherty. Well----
    Mr. Gallagher [continuing]. Do something about it.
    Mr. Dougherty. I think, technically--yes, right. We are 
engaged at various levels in different governments, from the 
top down over to law enforcement, so we can--we can have an 
informal communication with them, we can also demarche them, if 
we wish. So I think the process would come through DHS 
headquarters eventually, if things were getting very serious, 
in that we would have to tell them we are getting to a point 
where we need to engage in some type of activity, such as 
shortening the period of time in which your nationals can come 
to the United States in order to get compliance from those 
countries.
    Mr. Gallagher. Thank you. Ms. Gambler, just so I 
understand. Is it GAO's position that DHS is currently not 
meeting the 2-year time line for a compliance review, and if 
so, what are the obstacles to adhering to that time line?
    Ms. Gambler. In the report that we issued last year, as 
well as in previous reports on the Visa Waiver Program, we did 
find that DHS was not consistently submitting to Congress those 
GAO reports within a timely fashion, and so we have made 
recommendations to the Department to take steps to ensure that 
those reports are submitted in a timely way.
    Based on our work, following up on those recommendations, 
DHS is taking steps to address that recommendation, but it 
remains open at this point.
    Mr. Gallagher. Thank you. Mr. Ramotowski, your written 
testimony states that the vast majority of visa applicants are 
interviewed by a consular officer. Who wouldn't be? Who would 
not be included in that vast majority? How does that process 
work?
    Mr. Ramotowski. Under the INA, there are some statutory 
exemptions, which include diplomats and officials, children 
under the age of 14, and individuals over the age of 79, and 
individuals renewing a visa that has expired less than 12 
months previously. But even with those exceptions, if there is 
any kind of an indication in our screening and vetting process 
that that applicant might present a threat, we can and do 
conduct interviews.
    Mr. Gallagher. Just when it comes to the screening and 
vetting process, give me a sense of the overall--your 
assessment of the overall workload of your consular officers 
who, you know, we are asking them to do a very important job, 
and also, what sort of training do they get in the questioning 
process? Is it just a checklist, or what does that look like?
    Mr. Ramotowski. Well, in terms of workload, we handle about 
14 million visa cases of all types each year, refusing over 2 
million, and issuing about 11\1/2\ million. The volume varies, 
of course, by country, by region, and we limit our officers to 
120 interviews per day.
    The training that they get begins when they first join the 
Department of State. They take the basic consular officer 
training course at our training center out in Arlington, and 
they are trained in the immigration law, interviewing 
techniques, and law enforcement officers from various partner 
agencies speak to these groups and have helped us develop our 
training materials.
    They are trained in the culture and language of the country 
and region to which they are going. Once they have arrived at 
their embassy or consulate duty station, they continue to get 
in-service training. Most of our posts have a fraud prevention 
unit that is focused exclusively on detecting, deterring, and 
defeating fraud of all types, criminal activity, and the 
personnel in that unit work with the line officers who are 
conducting the interviews to ensure that the line officers are 
aware of any recent scams, any fraud trends, things of that 
sort. As officers progress through their careers, they will get 
enhanced mid-level training, management training, leadership 
training, and so forth. So it is a comprehensive process.
    Mr. Gallagher. Thank you, Mr. Ramotowski. One hundred 
twenty seems like a lot. As a former military interrogator, 
that is--we are asking them to do a lot.
    The Chair now recognizes the Ranking Member, Ms. Watson 
Coleman, for 5 minutes for questions.
    Ms. Watson Coleman. Thank you, Mr. Chairman. First, I would 
like to ask unanimous consent that the gentleman from 
Massachusetts--oh, what happened to the gentleman from 
Massachusetts?--be allowed to sit and question the witnesses as 
well.
    Mr. Gallagher. Without objection.
    Ms. Watson Coleman. Second, I would like to yield my time 
at this moment to Hon. Barragan, who has a time issue.
    Mr. Gallagher. Ms. Barragan, you are recognized for 5 
minutes.
    Ms. Barragan. Thank you. I represent the Los Angeles Port, 
which is how we like to call it, America's port, one of the 
largest ports, and I had a chance to visit with CBP down at the 
port and to see what they do. The work that they do is so 
excellent on making sure to secure our ports.
    According to staffing numbers in March, CBP was almost 
1,400 officers short of its staffing target, and likely, 
thousands of officers below what your staffing model would 
indicate is optimal for security and facilitation at our ports 
of entry. While the men and women of CBP's office are doing 
their best under the circumstances, at some point, security and 
facilitation suffer.
    Attrition is a problem and hiring is slow. Meanwhile, the 
President has proposed hiring 5,000 additional Border Patrol 
agents, but zero new CBP officers for our Nation's ports of 
entry. What needs to be done to address CBP's staffing needs 
for ports of entry?
    Mr. Wagner. So you are correct, we are still about 1,400 
officers short. We still have not fulfilled the original 2,000 
that Congress provided to us about 3 years ago now. Thankfully, 
our attrition is fairly low. We are at about 3.4 percent per 
year in the CBP officer ranks, about 750 to 800 officers per 
year.
    But you are correct, the hiring has been slow. We are 
barely keeping pace with the attrition right now, so I know we 
continue to go through the entire hiring process from the 
written exam to the polygraph to some of the other 
requirements, and look at where people are failing out of the 
process and how do we do a better job at recruiting, and how do 
we get right people into this occupation and will take the jobs 
where we need them.
    So we are having a pretty extensive review of that with our 
Office of Human Resources, and looking at ways to shorten the 
process and get better applicants in, and then look at, you 
know, like we can do with the military and veterans that are 
coming out of service, and how do we--how do we make it a lot 
easier for them to take these occupations?
    As far as additional officers, you know, we annually submit 
a workload staffing model report, which articulates our needs. 
It is all based on the workload, the data, how long it takes to 
perform each function that we have at the ports of entry. You 
are correct, the numbers are still a couple of thousand in 
that, and we submit that report annually to the Hill.
    So in the mean time, you know, we look at balancing those 
vacancies with the use of overtime and the use of technology to 
help us do that so we are not vulnerable and we do close those 
security gaps.
    Ms. Barragan. Great. Thank you.
    Mr. Ramotowski, Reuters has reported that Secretary 
Tillerson had sent a series of internal cables, four in total, 
to consulate and embassies abroad, instructing them of new 
measures to increase vetting of visa applicants. In these 
cables, Secretary Tillerson has directed U.S. consulates and 
embassies to specifically identify population risks that 
warrant, ``increased security,'' and to implement tougher 
screening procedures for this particular group of people.
    Applicants who fall into one of the tougher screen--
applicants who fall into one of the identifiable population 
groups will be subjected to a higher level of security 
screening. Have you worked to develop a uniform system for 
identifying populations who pose a security threat?
    Mr. Ramotowski. We are actually engaged in that process now 
with our partner agencies, some of which are represented here 
and others that are not, to do exactly that. You know, the 
Department of State works with and tries to take a whole-of-
Government approach to analyzing and detecting potential 
threats against our country, so we are in the process of doing 
that.
    The Secretary did direct embassies and consulates to begin 
that process to focus on areas that--and groups that might 
present a higher degree of risk and to ensure that those groups 
get effective screening.
    Ms. Barragan. Are we doing something to make sure it is a 
uniform process, that there is a uniform standard?
    Mr. Ramotowski. Yes. There is definitely a uniform standard 
foundational base to our vetting process, which I outlined in 
my initial comments. Every visa applicant--well, most visa 
applicants give electronic fingerprints. Every visa applicant 
is checked through our facial recognition system, through a 
series of sophisticated biographic name checks, and so forth.
    Ms. Barragan. If I could just quickly interrupt, because I 
have a few seconds.
    Mr. Ramotowski. Yes.
    Ms. Barragan. My understanding is that the instruction was 
for them to identify groups----
    Mr. Ramotowski. Correct.
    Ms. Barragan [continuing]. That could be a higher risk. So 
my question is more of like how do you identify those 
populations having a uniform standard?
    Mr. Ramotowski. Well, the degree of risk is going to vary 
with each particular region and country, and that is why we are 
asking our folks in the field to meet with their other agency 
counterparts to identify potential groups that present a higher 
risk.
    Certain regions, certain areas certainly do present a 
higher risk than others, and, for example, to respond back to 
the Chairman's question regarding 120 interviews, that is a 
maximum. We will take all the time we need to drill down and 
get to the bottom of an individual case in order to assure 
ourselves that that applicant does not present a threat. So 
that is what we are trying to do, to identify and focus our 
resources on areas that present a greater risk.
    Ms. Barragan. All right. Thank you. I yield back.
    Mr. Gallagher. Thank you. The Chair now recognizes the 
gentleman from New York, Mr. Katko, for 5 minutes for 
questions.
    Mr. Katko. Thank you, Mr. Chairman. Before I ask my 
questions, I do want to commend you and Ms. Watson Coleman and 
the others on this task force. Having led one of these last 
term, what you are looking into is critically important to the 
security of our country, and recognizing the diffusion, if you 
will, of ISIS from strictly in the Syria and Iraq area to now 
metastasizing, if you will, to other areas of world, it is 
clear that they want to infiltrate the West, it is clear they 
want to get into the United States, and these things that you 
are looking into are very important and helps keep our country 
secure, so I thank you for that.
    I thank the whole panel for what you do to try and keep our 
country safe and secure, and I appreciate that very much.
    Mr. Wagner, I was troubled not by anything you said, but 
the statistics you talked about, and being that you are still 
down about 1,400 from the authorization you had. I know you 
touched on it briefly, but if you could expound a little bit 
more on what you are finding as the reasons for the delays and 
what we can do to help you expedite that process?
    Mr. Wagner. Yes. So it is--the numbers are about 1,000 from 
the original 2,000, and then due to some of our reimbursable 
agreements that we have entered into, that number is then 
bumped up a little bit, so it is total about 1,400 officers 
right now between what level we are funded from, from 
appropriations, and then from the reimbursable agreements that 
we have.
    So we try to balance that, you know, try to balance that in 
places where we can absorb that understaffing using overtime 
and other means to be able to do that. What this also means is, 
you know, sometimes we have to say no to additional requests 
for service.
    We are getting a lot of requests for service, a lot of 
airports, land border locations coming in asking us to be able 
to process more flights and more people. So we try to find 
creative ways really to be able to do that.
    Now, the process itself, we have made some progress in 
shortening the length of time it takes to hire people. We have 
done some work, what we call consolidated hiring hubs, where we 
move some of those administrative procedures together, working 
closely with the military to be able to do this. But, still, 
when we look at the different steps in the process, and you 
know, for people that apply for the job, you know, about half 
of them don't even bother to show up for the written exam.
    You know, and only about 38 percent of the people pass the 
written exam, and then the other steps in the process, the 
interview, the medical screening, the physical fitness 
screening, you look at the polygraph, knocks out a lot of 
people, and we have worked some exemptions to that, I 
understand.
    Mr. Katko. Just basically, the process you have set up just 
substantially weeds out a ton of the people?
    Mr. Wagner. It does.
    Mr. Katko. Is that the biggest problem?
    Mr. Wagner. We have got to get more sophisticated in the 
recruiting and the advertising of these occupations. They are 
great jobs, and we want to be able to put the right people in 
them, of course, without also reducing our criteria for doing 
so, which will hurt us down the road to do that for the job.
    Mr. Katko. OK.
    Mr. Wagner. So it is very strict. The backgrounds have to 
be very strict, but they are very good Federal jobs, so we have 
to just find the right people that are willing to take them in 
the locations where we have those vacancies. Most of those 
vacancies are on the Southwest Border area.
    Mr. Katko. Gotcha. Thank you.
    Mr. Settles, I want to switch gears for a minute. We spoke 
previously about the use of biometrics and the importance of 
biometrics, biometrics going forward in the enforcement of our 
laws, and keeping our country safe and on an immigration 
standpoint as well. So could you talk about some of the 
advances that have taken place with respect to biometrics, and 
any problems you see in gaining biometric data from various 
agencies in pursuit of the Visa Waiver Program?
    Mr. Settles. So I could talk about that generally. If it is 
OK, I would like to make a correction to the record. In my 
statement, I added a zero to a number. I actually meant to say 
8,599 recommended refusals from our VSP post, not 85,000, so I 
just wanted to correct that for the record.
    What I can say is ICE HSI doesn't play as large a role. We 
are more of a consumer of that information. We do have a 
program that is under way that we are working with DOD that I 
would have to probably share in a more Classified setting.
    Mr. Katko. I understand.
    Mr. Settles. Which we would love to, but I would probably 
yield to my other esteemed colleagues here at the State 
Department and CBP to talk a little bit more about the 
biometric side of it.
    Mr. Katko. OK. Someone like to take that?
    Mr. Ramotowski. I can.
    Mr. Katko. Mr. Ramotowski.
    Mr. Ramotowski. Yes, thank you. The Department of State 
shares all of the information we collect through the visa 
process with our interagency partners, and that includes, of 
course, the electronically collected fingerprints, which go 
into the DHS IDENT database, and it is accessible to all of our 
DHS partners, as well as FBI. We send the fingerprints for 
screening through the FBI's criminal fingerprint database and 
to other agencies as well.
    Other biometrics include the photograph, which we get from 
all applicants, and that is screening against our facial 
recognition system, which includes, among other things, up 
beyond 60,000 terrorist photographs that have been collected by 
the intelligence community. If there is a facial recognition 
match, that would, of course, signal a consular officer to halt 
action on that case.
    So we continue to share all of our data and to develop 
capabilities even further.
    Mr. Katko. Thank you. I am running out of time. I want to 
thank the Chairman for letting me ask questions. I have to run 
to another meeting, but I encourage all of you in this space to 
look at the advances being made in the biometric field and make 
sure you apply them on the front lines, and to the extent you 
need help from us, you have got to let us know, because we will 
be there for you. So thank all of you very much. I yield back.
    Mr. Gallagher. The Chair now recognizes Ms. Jackson Lee for 
5 minutes for questions.
    Ms. Jackson Lee. I thank the Chair very much. I thank the 
witnesses for their testimony. I am going to pursue a lining of 
questioning. First of all, let me say the task force is asking 
a very important question, and I hope that we can work on these 
matters in a bipartisan manner and expand to look at a number 
of other issues that impact the security of Americans.
    I do want to indicate that we have, on this committee, 
great respect for all of the personnel that are in the service 
of our country for its domestic security and National security. 
I think sometimes policies cause our very dedicated staff 
persons to really have to perform in a way that is inconsistent 
with our values of democracy and justice and fairness for all.
    Let me, first of all, say to Mr. Settles, my sympathy as 
well to your team for the loss of your fallen agent and to his 
family.
    I want to indicate to Mr. Wagner, we have worked together 
for a number of years, and I thank you for your service. You 
remember the Muslim ban and the Russian, which it came before 
the court orders, and everyone was scrambling, and many Members 
of Congress were trying to help their constituents, and the 
awkwardness of what has been normally good relationships was 
evident. So I hope that, going forward--I hope we don't have 
that order in place, but going forward, that those dispatched 
in local offices can recognize that we are on their team 
seeking information.
    I had a 16-year-old Jordanian-statused young man traveling 
on his own being held and his family could not see him, I 
couldn't see him, and he was shipped off to Chicago, and he 
lived in Houston, Texas.
    So anyhow, what I wanted to ask was the question of reports 
that we received on the implementing of the rules, and when 
that ban was in place. That conflict in implementation guidance 
resulting in different ports implementing the order 
differently, such as taking a statused Jordanian. Currently, 
what guidance does CBP issue to CBPOs operating at the ports of 
entry regarding implementation of the travel ban? What is the 
status of the travel ban with respect to your officers 
throughout the country?
    Mr. Wagner. Well, I believe they are subject to litigation, 
and, you know, we are following what the court orders. So we 
put that information out to the front-line personnel to comply 
with all of the court's instructions.
    Ms. Jackson Lee. Meaning that there is no travel ban--there 
is no Muslim ban. You are not operating under a Muslim ban 
right now.
    Mr. Wagner. No, we are not.
    Ms. Jackson Lee. OK. Let me further ask--and I know we are 
in an open setting. I had a bill dealing with foreign fighters. 
What can you tell me about your procedures for individuals who 
come through a Visa Waiver Program--excuse me, country, and may 
have fought and gone to the caliphate to fight and are now 
coming through a Visa Waiver Program, or may come through a 
Visa Waiver Program, what procedures are your officers using 
with respect to that population?
    Mr. Wagner. So a couple of different ways we would look at 
that. First is the granting of the ESTA approval to even 
travel. They have got to fill out an on-line application with 
us, including their place of birth, all of their passport 
information. We run that through a series of law enforcement 
databases, and we also bounce that against--certain data fields 
against the intelligence community.
    Ms. Jackson Lee. Does that include preventing them from 
getting travel documents as well?
    Mr. Wagner. Correct. So that would prevent them from 
traveling under the Visa Waiver Program if there were any 
concerns identified there. Once they get that approval, then 
they actually book their travel, we do look at the airline 
reservation data, we look at what their trip consists of, we 
look at all the different parts and the data pieces within that 
reservation, as well as the airline manifest information, which 
is basically your passport details.
    We run that through a series of what we call rule sets, and 
we take all of that reservation data, and we take intelligence 
reports, and we translate that into rules. We say: Give me all 
of these passports from this country with males between these 
ages traveling from this country or this route, and we start 
with a list and then further cull it down on the basis of that, 
and narrow that down to people we need to talk to or question 
about things.
    Or we link it against known pieces of information. So 
again, in conjunction with the law enforcement and intelligence 
community, known pieces of information that we can connect the 
person to more than likely would deny their travel under that 
program or cause them to go through additional scrutiny or 
inspections either overseas or when they arrive.
    Ms. Jackson Lee. I have got a quick question. Thank you so 
much to Ms. Gambler. I just want to know, you are sitting on 
the panel with the implementators of rules of security. What is 
your--what is the GAO's perception of the layered approach in 
the Visa Waiver Program, and do you think it is structured 
enough or is there more that we need to do?
    Ms. Gambler. Based on our work looking at not just the Visa 
Waiver Program, but some of the other programs that we have 
talked about today, I think we have seen progress in 
implementation in terms of DHS's oversight of the program. One 
of the key areas that we have talked about as it relates to 
some of the predeparture programs that I mentioned in my oral 
statement is the need for DHS and CBP to develop metrics and 
baselines to really help them assess the effectiveness of some 
of these programs.
    So that is a key recommendation that we have made to DHS 
related to some of their screening and predeparture efforts 
that we think it is important for them to implement going 
forward.
    Ms. Jackson Lee. To the Chairman and the Ranking Member, 
let me thank you for your indulgence, and to all of the 
witnesses, thank you for your service to the Nation. I yield 
back.
    Mr. Gallagher. Thank you, the Chair now recognizes the 
sheriff, now Congressman Rutherford, 5 minutes for questions.
    Mr. Rutherford. Thank you, Mr. Chairman. I would like the 
start off, first of all, by thanking all of you for your great 
service. As I have had an opportunity to travel around the 
country and observe some of your agents and employees in 
action, it has been refreshing, and so I thank you for that. 
You have a lot of dedicated members out there.
    I want to touch base with something that Mr. Settles said 
about the--you corrected the number, the 8,500 in admissions. 
Now, GAO reports that we identified 22,000 high-risk travelers 
in 2015, and so these 85, were they in that 22,000, I presume?
    Mr. Settles. Yes. These are the numbers for the 30 visa-
issuing posts we have in 25 countries that we strategically 
placed.
    Mr. Rutherford. OK. So that only includes the VSU folks, 
right?
    Mr. Settles. That is the VSU, the Visa Security Program. 
The units overseas, we call them the units. The program is the 
Visa Security Program, and so that is for those 30 posts.
    Mr. Rutherford. OK. So about--does that mean about half of 
these or a little more than half are being determined to be 
high-risk, but they are being allowed to come in? Is that a 
correct assessment or no?
    Mr. Settles. No, because the number starts at about 2.2 
million for those 30 posts, and we whittle it down and we have 
derogatory information on about 74,000.
    Mr. Rutherford. OK.
    Mr. Settles. Then utilizing automated vetting, as I talked 
about yesterday in the Classified setting, what I can say is 
the information is as good as what is in there.
    Mr. Rutherford. Right.
    Mr. Settles. I think, like I mentioned, Director Comey 
said, You can vet until the cows come home, but if the 
information isn't in the system. So we amplify that information 
with analysts, both here and the United States that when we 
have derogatory hits, then we send it to our agents over there 
that are solely there to do that cop-to-cop foreign liaison 
partnership, and also, to, you know, increase the information 
so we have more in the system for the future. So that 8,500 is 
part of that process.
    Mr. Rutherford. OK.
    Mr. Settles. Then from there, we go down to where we watch 
listed 1,669.
    Mr. Rutherford. OK. I know that Mr. Wagner, the CBP is, in 
fact, following up on the GAO's recommendation about the 
baselines, can you talk a little bit about where you are at on 
those measures? I am curious of the 8,500, particularly, or any 
of them. Do we know of any that have actually been subject to 
the Visa Security Program and then allowed in and committed a 
terrorist act here, or not allowed in and committed a terrorist 
act in France or Germany or somewhere else?
    Mr. Settles. So I don't have specific information like 
that. As a matter of fact, I don't know of an incident, but 
what I can tell you is, of the ones that we watchlisted, you 
know, obviously they didn't come into the country.
    Mr. Rutherford. Right.
    Mr. Settles. Whether or not, it is kind-of complicated with 
reporting as far as whether our foreign partners would have 
shared that with us, but we do share what we can, obviously, 
back out of this whole process. That is the biggest part of 
us----
    Mr. Rutherford. Back to our foreign partners?
    Mr. Settles [continuing]. Being there, back to our foreign 
partners.
    Mr. Rutherford. OK.
    Mr. Settles. I did provide, in the Classified setting, a 
pretty good example, I think, of what happens every time we 
kind of go through that process yesterday.
    Mr. Rutherford. Thank you for that as well.
    The Visa Security Program has been, I think, incredibly 
successful in providing increased information and 
recommendations to the consular offices regarding visa 
applications. Can you talk a little bit, Mr. Settles, about how 
the ICE attaches at embassies and consulates where they don't 
have VSU, how do you assist with the screening and the vetting 
of visa applications at those locations?
    Mr. Settles. They are--so in the 66 countries--I am sorry, 
at the 66 posts where we have--and 49 countries, you know, our 
agents are there to do a lot more than just the Visa Security 
Program. They are there to help with transnational criminal 
networks, you know, the kind-of broader perspective of what 
Homeland Security investigation does.
    It is more of on a request from State Department and the 
consular affairs officer. If they see something during their 
routine process and the high site vetting----
    Mr. Rutherford. They reach out.
    Mr. Settles [continuing]. They come over to us and ask for 
our help, and you know, that is kind-of the difference. We 
provide training and any recent trends or intel we have, but 
it's more on a case-by-case instead of it being like a full-
time responsibility of the agent.
    Mr. Rutherford. OK. Listen, again, I think all of my time 
has run out, but I really appreciate all of your service to our 
country. God bless.
    Mr. Chairman, I yield back.
    Mr. Gallagher. Thank you. The Chair recognizes Ms. Watson 
Coleman.
    Ms. Watson Coleman. Thank you, Mr. Chairman. I want to 
thank each and every one of you for what you represent and who 
you represent here today, and it just seems to me that, 
collectively, we are doing a heck of a job and interacting with 
one another.
    Mr. Settles, a real quick question. Just like Mr. Wagner 
was asked, did he need more help on the CBP, do you need more--
do you have greater requests than you are able to address with 
the things that you are doing in the foreign countries?
    Mr. Settles. Yes, ma'am. With more--certainly we can do 
more.
    Ms. Watson Coleman. We just need to know that.
    Mr. Settles. We have an aggressive--we are doing as much as 
we can aggressively with the resources we have.
    Ms. Watson Coleman. At some point, we would like to have 
some information specifically about what additional things, 
resources, whatever, staff you need to do what you are doing. I 
think what you are doing is very important, as I believe every 
one of you are doing very important things.
    Last month, Secretary Kelly stated that we needed to start 
looking very hard at the security of the Visa Waiver Program, 
and do you know what he meant by that, Mr. Dougherty? Has the 
DHS begun a review of the VWP, and what security enhancements 
are being considered?
    Mr. Dougherty. Thank you. Secretary Kelly, when he was 
making remarks about taking a hard look at the VWP, was 
basically iterating, I think, the concern that we all have, 
that foreign fighters may be coming out of the Levant, making 
their way into Europe, and those people are Europeans. They 
have European citizenship.
    So Secretary Kelly's intention, and the intention of, I 
think, everyone represented by DHS here, is to look at 
additional things that the Department can do to make visa-free 
travel to the United States more secure than it is now.
    Ms. Watson Coleman. Can you discuss what kind of additional 
things you are doing, what kind of enhancements, security 
enhancements are under consideration----
    Mr. Dougherty. I think----
    Ms. Watson Coleman. In this setting?
    Mr. Dougherty. I would like to have that conversation with 
you off-line if we could, and I think it is a dialog. I know 
that the committee is very conversant on opportunities that the 
Department can take. We have some of our own, but I think we 
are at a point, ma'am, where we are looking at several things, 
and we would prefer to discuss that in a quieter setting.
    Ms. Watson Coleman. Thank you. One last question to Mr. 
Wagner. Since the terrorist attacks of 9/11 and in the wake of 
the attempted attack on Northeast--Northwest Flight 253 in 
2009, the Nation's visa and passenger vetting processes have 
been completely revamped and strengthened, obviously, with the 
individualized threat assessment for each traveler to the 
United States that includes screening against all kind of 
Government holdings, biometrics, capture, and interview.
    Tell me how can this individualized threat assessment be 
strengthened, and what do you need from us to support your 
efforts?
    Mr. Settles. Yes. The underwear bomber, the Christmas day 
bomber, I mean, that was the whole genesis really behind our 
predeparture program, and we looked at a very close call in 
that situation. We looked at the opportunities we missed. You 
know, we had officers overseas at the airport that that guy had 
come through. We weren't necessarily having them focused on 
that type of particular threat, so we adjusted that.
    We put this--the whole predeparture process and the no-
board recommendation process into place with a very strong 
focus on, besides the immigration issues, the National security 
focus, and really, to err on the side of caution. If there is 
any concerns about an individual, we ask the airline not to fly 
them and refer them back to the U.S. embassy where, across 
Government, we have more time to assess this person and look at 
them. That was really the genesis of that program.
    As far as just--I think we look for support in, you know, 
what we request in our appropriations request as far as the 
capabilities at our National targeting center and the systems 
we build to continue to conduct the analysis and the vetting of 
this information across Government against as many sources as 
we possibly can to make sure we are not missing any gaps, and 
that we don't have to wait for another incident to sit down and 
figure out what gaps we missed or what information wasn't 
available at the right time to prevent that person from moving 
into this, say, the next step of the process.
    So we have been focused on it since then, and we have 
really built a really strong capability with a National 
security focus ever since that. That was a close call.
    Ms. Watson Coleman. So you don't need anything from us?
    Mr. Wagner. Well, I think we put it in the appropriations 
request, and there is money, I believe, for our National 
targeting center to support, and Congress has been very 
generous and very supportive of us building out an entirely new 
facility in Northern Virginia. We had two National targeting 
centers. We consolidated them into one location. I please 
invite any of you to come out and see the work that goes on 
there and the partnerships across Government that we have 
established.
    Ms. Watson Coleman. Thank you, Mr. Chairman. I yield back.
    Mr. Gallagher. The Chair now recognizes Mr. Fitzpatrick for 
5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    I want to echo my colleagues. I thank you all for your 
service. I come here via the FBI, so I consider you all family, 
needless to say. You have got a very tough job keeping us all 
safe, but we thank you for doing it.
    I just want to explore for 1 second the hypothetical of 
terminating the Visa Waiver Program. Obviously, the world in 
2017 is much different than it was back in 1986 when that law 
was implemented. Obviously, all of those countries are very 
different as well. There are obviously a lot of bad people who 
live in many of those, if not all, of those 38 countries. As 
Chairman McCaul stated in his opening statement, several of the 
9/11 hijackers came in via Europe with no vetting whatsoever.
    Hypothetically, if that program were to terminate, would 
DHS even have the bandwidth and the capacity to deal with that 
new world if we were ever at that point where we needed to go 
there?
    Mr. Wagner. I would really defer to the Department of 
State.
    Mr. Ramotowski. If they terminated the program, then, 
presumably, all of those travelers would have to apply for a 
visa from the Department of State, so it is really our 
bandwidth. Certainly, in Europe, the capacity to handle 18 
million visa applications a year when globally, right now, we 
are doing 14 million just isn't there. It would take quite a 
bit of time and resources to ramp up to be able to handle that 
caseload, if the entire program was suddenly eliminated.
    Mr. Fitzpatrick. What would you see that looking like, 
numerically? Could the embassies handle it or are we at the 
point now where it wouldn't even be possible?
    Mr. Ramotowski. It wouldn't be possible with that volume, 
with the current physical plant and staffing that we have, no, 
it wouldn't be possible, not in any reasonable length of time.
    Mr. Fitzpatrick. So we have grown dependent upon the Visa 
Waiver Program then, essentially?
    Mr. Ramotowski. Well, resources that were used to handle 
visa applications when the program started in the mid-1980's, 
have since been reallocated, both real estate and officer 
positions, to other countries where the visa demand was 
greater. We didn't just keep officers in Europe with nothing to 
do.
    Mr. Fitzpatrick. OK.
    Mr. Wagner. The volume is about 19.5 million travelers last 
year under the Visa Waiver Program. So the volume is 
substantial, but I think if you look at comparison of the visa 
versus Visa Waiver Programs, both programs collect similar 
biographical data from the individual. The vetting queries that 
are run in the analysis is fairly similar on the two programs.
    The big distinction is the point in time when that traveler 
meets with the U.S. Government official. For a traveler with a 
visa, they meet with a consular officer to give their 
fingerprints, have their photo taken, and be interviewed at the 
U.S. embassy while still overseas.
    The Visa Waiver Program, we allow that traveler, after that 
prescreening, that their first interaction with a U.S. 
Government official would then be a CBP officer at the port of 
entry where they would get interviewed, collect the same 
fingerprints, run the same queries, and also have their photo 
taken. So it is really whether you allow that person to get on 
the plane to travel here to collect the same kind of 
information and go through a similar type of interview.
    The background checks and the biographical data that serves 
at the platform for the two are fairly similar in that. So it 
is also looking at it from, you know, asylum claims and some of 
the admissibility issues is do you allow the risk of the person 
getting on the plane to the same level of information once they 
get here or do you do it overseas? That is probably the biggest 
distinction between the two.
    Mr. Ramotowski. I would also add that the information 
sharing that is so important to populating our watch lists 
about threats from these countries might be endangered also if 
the program were to be suddenly terminated, because a number of 
our partner countries use their membership in the Visa Waiver 
Program to justify any enhanced information sharing with the 
United States that benefits both sides. So that is a factor to 
consider as well.
    Mr. Fitzpatrick. Is it fair to say, though, that the Visa 
Waiver Program presupposes that we have confidence and faith in 
the security protocol of these other countries? If so, is that 
warranted today?
    Mr. Dougherty. Sir, if I could answer that, I think it is 
probably as strong as it has ever been. The assessments that 
are performed by the Department of Homeland Security are very 
granular. So we look at, for example, how do you train your 
people? Do you have a legal system that we would recognize as 
putting criminals away or terrorists away? Do you have security 
processes that we recognize as essential to making sure that 
you don't have a lawless population or a group of terrorists in 
your midst who then could become part of the Visa Waiver 
Program?
    I haven't physically sat down and counted everything that 
we consider in an assessment, but there is a significant number 
of security features that are involved in those assessments and 
they are very, very detailed.
    Mr. Fitzpatrick. Thank you.
    Mr. Chairman, I yield back.
    Mr. Gallagher. The Chair recognizes Mr. Higgins for 5 
minutes. Votes went off, but we should be good with 5 minutes 
and some words at the end.
    Mr. Higgins. Thank you, Mr. Chairman. I will move fast.
    Deputy Commissioner Wagner, thank you for your service to 
the Thin Blue Line. Sir, I recognize and respect the mourning 
band upon your badge. How long have you been behind a badge, 
sir?
    Mr. Wagner. Over 25 years, sir.
    Mr. Higgins. In the 25 years, have you managed to be able 
to recognize a damn good cop when you see one and when you 
interview one?
    Mr. Wagner. Absolutely.
    Mr. Higgins. Thank you.
    The applicants that try to come to work for your agency, 
are not many of them experienced and recognized and decorated 
officers and deputies from other agencies?
    Mr. Wagner. Yes, some of them are.
    Mr. Higgins. Yes, sir. What is the failure rate for the 
psych eval and the polygraph test for those deputies and police 
officers?
    Mr. Wagner. I don't know that we have the data by their 
previous occupation. I wouldn't know.
    Mr. Higgins. Your best guesstimate on that?
    Mr. Wagner. No visibility into that, sir. It is a different 
part of an organization.
    Mr. Higgins. I am getting at the 1,400 agents that you need 
and that there seems to be a built-in resistance in the system. 
By my own experience, I am recognized as a police officer for 
14 years, sometimes officers choose to advance their career and 
go to another department. They can't pass the psych eval and 
they can't pass the polygraph. It is a rather bizarre 
circumstance. Tell this committee, are you running into that?
    Mr. Wagner. Well, there is no psychological exam for the 
CPB officer occupation. For the polygraph, yes, there is a 
very, very high failure rate for that.
    Mr. Higgins. What would you say the failure rate is?
    Mr. Wagner. It is upwards of 60 to 70 percent.
    Mr. Higgins. Thank you.
    I would just like the committee to recognize that this is a 
common circumstance across the country when experienced and 
highly decorated and capable police officers apply for jobs at 
Federal agencies, they can't get hired. When the ranking 
officers that are interviewing them sometimes know that they 
are turning away a damn good cop for that job.
    Deputy Secretary Ramotowski, we have--it seems to me there 
is a tendency in our Nation and perhaps the world to give a 
certain pedigree to a visa. That visa comes with a certain 
expectation that that individual has been properly vetted and 
cleared and whatnot. I would like to address that for a moment.
    The beginning process of applying for a visa, the person 
applying for that visa has to present what is referred to as 
proper certificates to proper Government authorities, like 
birth certificates and marriage licenses. Is that correct?
    Mr. Ramotowski. Depending on the type of visa, yes, that is 
correct.
    Mr. Higgins. Those documents are frequently coming from--
you know, we are familiar with certain levels of security 
measures on our own identifications here in America: 
Watermarks, barcodes, magnetic scans, et cetera. But a birth 
certificate and a marriage license coming from a rural area in 
some of these nations that the citizens are seeking access to 
our country, given the very advanced state of the ability to 
forge documents, it would seem to me that that would be a very 
weak link in the chain, and that is where the chain begins, 
that these documents are presented from some rural community. I 
mean, I have arrested men with many excellent IDs, driver's 
licenses, American driver's licenses that would pass muster 
that any cop would look at and say, that is a real driver's 
license, and the whole thing is fake. The ID is fake. The whole 
thing is fake. The only thing real on it is his picture. If 
that can happen with an American driver's license, what are 
they doing with marriage licenses and birth certificates at 
these--in this vetting procedure?
    Mr. Ramotowski. You are quite right, sir. That is why we 
never depend exclusively on the documents for granting an 
immigration benefit, because in many countries, they could be 
and are fraudulent. We have fraud prevention offices at all of 
our large- and medium-sized embassies. Even at the smaller 
ones, an officer is always designated as a fraud prevention 
officer. They are focused on reviewing and investigating any 
suspicious documents.
    Our officers have a network of contacts throughout the 
country with civil registrars, government passport offices, 
courthouses, and so forth to verify documents when necessary. 
Also, the value of the consular interview is ascertaining 
whether the applicant matches the documents that he or she is 
presenting; does the story make sense? If a marriage is claimed 
but the two parties do not know anything about each other, then 
there is maybe a problem there.
    Mr. Higgins. Thank you for your answer, sir.
    In the interest of time, Mr. Chairman, I have further 
questions that I'll submit in writing. I yield back.
    Mr. Gallagher. Thank you.
    We now have to go vote, as one does in Congress from time 
to time.
    I want to thank the witnesses for their time and for their 
testimony, both yesterday and today. This was a great way to 
start the work of the task force with serious, thoughtful 
conversation.
    I want to thank the Members of the task force on both sides 
of the aisle for being here, for being thoughtful. I am very 
excited about where this headed. We have an incredible, 
incredible range of experiences, local law enforcement, Federal 
law enforcement, military, diverse backgrounds. My hope is that 
we are able to harness that, harness the outside expertise that 
you bring, and come up with some recommendations that are 
serious, that are smart and, ultimately, will make the homeland 
more secure. And for waking up every day in pursuit of that 
noble objective, and I can't think of an objective more noble 
than that. I want to thank each and every one of you.
    So with that, pursuant to committee rule VII(D), the 
hearing record will be held open for 10 days. Without 
objection, the task force stands adjourned.
    [Whereupon, at 3:58 p.m., the task force was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Chairman Mike Gallagher for the Department of Homeland 
                                Security
    Question 1a. What is the status of biometric exit implementation, 
pursuant to 8 U.S.C. 1365b?
    Answer. Since the 2018 deadline was set by Secretary Johnson and 
the issuance of the Executive Order, ``Protecting the Nation from 
Foreign Terrorist Entry into the United States,'' CBP has accelerated 
the implementation of a biometric entry/exit system. CBP is deploying 
key components of a biometric air exit solution through face 
recognition capture at airport gates in eight airports during the 
summer of 2017, plus a series of additional programs through airline 
partnerships, and will have the capability to accept biometric 
departure data at the top 20 airports by the third quarter of fiscal 
year 2018. CBP is also moving forward with a practical and achievable 
implementation strategy in the land environment by focusing on 
biometric exit capabilities for third-country nationals. CBP will 
continue to test new innovative solutions for biometric capture for at-
speed vehicles until a feasible solution is found.
    Question 1b. How does DHS expect this capability to enhance its 
ability to identify terrorists in the terrorist detection?
    Answer. In response to a 9/11 Commission recommendation, Congress 
directed the Department of Homeland Security (DHS) to implement a 
biometric entry/exit screening system which would help identify 
terrorists, by for example, preventing terrorists from ``tossing an old 
passport and slightly altering the name in the new one.'' A biometric 
exit solution, in addition existing checks of any biographic watch list 
information, will assist CBP in identifying imposters and tie the 
information to any biometric watch list hits, strengthening current 
capabilities. Full biometric exit capability will improve DHS's ability 
to more accurately and completely identify overstays, as more complete 
arrival and departure information will then be available for all 
travelers.
    Question 1c. Will the current funding stream be sufficient for 
implementation at the Nation's busiest international airports by 2018?
    Answer. The current funding stream will be sufficient to execute 
CBP's plan to begin accepting biometric exit data at the Nation's 
busiest airports by the third quarter of 2018. CBP's primary focus in 
fiscal year 2017 and fiscal year 2018 is developing the essential 
program elements and back-end infrastructure for biometric air exit. 
The funds will be utilized for information technology, program 
management, operational support, outbound enforcement (CBP officers), 
and technology innovation for other modes of operation such as land and 
sea. CBP is currently developing an official Life-cycle Cost Estimate 
for the Biometric Entry/Exit program. CBP will continue working with 
the airlines and airport authorities as we further our biometric exit 
requirements.
    Question 2. Please explain how DHS continually vets visa holders or 
individuals who enter via the Visa Waiver Program for ties to terrorism 
or other derogatory information once they have entered the United 
States.
    Answer. For visa holders and applicants, U.S. Immigration and 
Customs Enforcement (ICE) visa screening operations are currently 
supported by two units--the Visa Security Coordination Center and the 
Counterterrorism Criminal Exploitation Unit. ICE Homeland Security 
Investigations (HSI) special agents deployed to international posts 
through the ICE Visa Security Program (VSP) are supported by screening 
and vetting efforts of the Pre-Adjudicated Threat Recognition and 
Intelligence Operations Team (PATRIOT).
    PATRIOT is an inter-agency coordination effort to conduct advanced 
visa application vetting and enhance visa security. Participating 
agencies include Department of Homeland Security (DHS), U.S. Customs 
and Border Protection (CBP), ICE, and Department of State (DOS). 
PATRIOT identifies National security, public safety, and other visa 
eligibility concerns at the earliest point of an individual's visa 
application life cycle. Upon issuance of a visa and subsequent 
admission to the United States, ICE's Counterterrorism and Criminal 
Exploitation Unit then tracks the visa for the remaining validity and 
life cycle in the overstay enforcement system.
    DHS, in collaboration with DOS and the Federal Bureau of 
Investigation, continues to engage visa waiver countries to enhance the 
exchange of known or suspected terrorists and watch list data. Further, 
ICE has expanded the VSP to a number of Visa Waiver Program countries 
to support the whole-of-Government effort to secure travel to the 
United States.
    CBP conducts continuous vetting of nonimmigrant and immigrant visas 
to ensure that changes in a traveler's eligibility are identified in 
near-real time. This allows CBP to immediately determine whether to 
provide a ``no-board'' recommendation to a carrier in imminent travel 
situations, to recommend that DOS revoke the visa, to deny an 
Electronic System for Travel Authorization (ESTA) application, or 
whether additional notification should be made for individuals 
determined to be present in the United States.
    Through ESTA, CBP conducts enhanced vetting of Visa Waiver Program 
(VWP) applicants in advance of travel to the United States in order to 
assess whether they are eligible to travel under the VWP, including 
whether the traveler constitutes a National security risk or public 
safety threat. Additionally, CBP requires air carriers to verify that 
VWP travelers have valid authorization prior to boarding an aircraft 
bound for the United States. CBP vets ESTA applicants against the 
INTERPOL Lost and Stolen Passport Database, the Terrorist Watchlist, 
and other Law Enforcement Databases.
    ESTA applications are subject to continuous re-vetting, which means 
that even though an applicant has an approved authorization for travel, 
that authorization is continuously reviewed throughout its validity 
period for new derogatory information and is subject to further review 
and subsequent denial if warranted.
    Question 3. A major lesson from 9/11 was the importance of 
interagency intelligence sharing. While we had derogatory information 
on some of the attackers, it did not make it into the hands of those 
who could have prevented their entry into the United States.
    How has the Department improved their ability to move derogatory 
information around the USG in a way that effectively identifies and 
interdicts known or suspected terrorists?
    How confident is the Department that the changes are tough enough 
to prevent any known or suspected terrorist from gaining entry?
    What gaps still exist, if any?
    Answer. The Department of Homeland Security (DHS) has matured its 
ability to move both derogatory and identity information around the 
United States Government (USG) to improve identification and 
interdiction of known or suspected terrorists (KST) through 
watchlisting and screening. Data held in the FBI's Terrorist Screening 
Center's Terrorist Screening Database (TSDB, ``The Terrorist 
Watchlist'') is made available for searching by appropriately cleared--
FOUO level--partners, in real-time either through direct access to TSDB 
or through Department-maintained screening databases such as TECS 
(DHS). The Office of Intelligence and Analysis (I&A), through the 
Terrorist Identities Datamart Environment (TIDE), shares terrorism-
related information with other intelligence agencies to help identify 
KSTs and take action to prevent their entry to the United States or 
lead to their arrest. DHS supports the USG's terrorist watchlisting as 
part of its day-to-day mission and adheres to established processes and 
procedures for Federal agencies to make their information available in 
the TIDE.
    International actors that qualify as KSTs, are submitted to the 
National Counterterrorism Center (NCTC), which determines whether the 
information is credible. If so, the information is entered into the 
TIDE database, to which DHS and other Federal agencies have access. 
TIDE KST unclassified names and identifiers are provided to the 
Terrorist Screening Center (TSC) where another review of the nomination 
and the relevant intelligence is conducted to verify the information 
before updating the TSDB. The TSDB is distributed to DHS screening 
systems for use, by various components, in their screening activities. 
Purely domestic actors who qualify for nomination as KST's are 
nominated directly to TSDB.
    In addition to the TSDB, the TSC has provided its Biometric 
Watchlist to the DHS Automated Biometric Identification System (IDENT), 
which is managed by the Office of Biometric Identity Management (OBIM); 
all DHS enforcement encounters are run against in the IDENT Biometric 
Watchlist. The Department of Defense Biometrically Enhanced Watch List 
(BEWL) has also been loaded into IDENT, and all biometric encounters 
are matched against the BEWL. The U.S. Army National Ground 
Intelligence Center (NGIC) is notified of any matches and coordinates 
with DHS as to appropriate actions that need to be taken. All entrants 
into the United States (including Visa Waiver Program travelers on 
their first trip into the United States) have their fingerprints 
captured and matched against the Biometric Watchlist. The TSC is 
notified of any matches and will coordinate any actions to be taken 
when a watch-listed person is encountered.
    The Department is confident the current processes have improved the 
USG's ability to identify and block KSTs from gaining entry to the 
homeland.
  <bullet> U.S. Custom and Border Protection (CBP) employs matching 
        algorithms to compare biographic identities from TECS records 
        against identities in the TSDB. When a potential match is 
        identified, NTC adjudicates the match and pulls information 
        from CBP holdings that can augment or enhance the data 
        contained in the TSDB record.
  <bullet> The Transportation Security Administration (TSA) also 
        contributes information derived from encounters with KSTs 
        directly into TIDE via the DHS Watchlist Framework. After the 
        information is entered into TIDE, a subset ``addendum B'' of 
        qualified information is down-streamed to TSDB to bolster 
        vetting and screening purposes. In 2016, TSA made 1,100 
        watchlist nominations based on information acquired during 
        routine operations, and in the first quarter of 2017 added 222 
        nominations.
  <bullet> U.S. Citizenship and Immigration Services (USCIS)/Fraud 
        Detection and National Security Directorate maintains a cadre 
        of staff who are certified as watchlist analysts through DHS 
        I&A's Watchlist training effort program. These analysts update 
        TIDE records of KST's with biographic information from USCIS 
        data systems.
  <bullet> U.S. Immigration and Customs Enforcement/Homeland Security 
        Investigations (HSI) is the largest partner with FBI and 
        currently provides the Deputy Director to the FBI's Joint 
        Terrorism Task Forces (JTTF). With HSI Agents in every JTTF 
        office Nation-wide, ICE is able to quickly assist with all 
        National security investigations to prevent KST entry.
    Question 4. Foreign fighters are currently in and leaving conflict 
theaters where the Department does not have a presence on the ground.
    Generally speaking, how does the Department work with other 
agencies that may have an in-theater presence (i.e. DOD and the IC) to 
incorporate information collected in theater into the screening and 
vetting process?
    Answer. DHS works extensively with our interagency partners to 
identify and disrupt terrorist travel. DHS personnel embedded at 
several Department of Defense locations in the United States and 
overseas review information collected from conflict zones--including in 
the Syria and Iraq theater--and work with interagency partners to 
incorporate appropriate information into databases and systems to 
bolster watchlisting and traveler screening. All pertinent information 
collected on known or suspected terrorists in an operating theater is 
required, via Homeland Security Presidential Directive 6, to be sent to 
the National Counterterrorism Center for inclusion in the Terrorist 
Identity Datamart Environment (TIDE). The unclassified names and 
identifiers in TIDE are pushed (in near-real time) to the Terrorist 
Screening Center where they are loaded in the Terrorist Screening 
Database (TSDB). Once in TSDB, all of the information is made available 
or provided at the FOUO level to Federal partners, as well as State and 
Local Law Enforcement use in their screening and day-to-day operations.
    Question 5a. Partnerships with our European allies will be crucial 
in identifying potential foreign fighters returning to their home 
countries as part of a ``terrorist diaspora.'' These Western foreign 
fighters are certainly a threat as they may more easily circumvent 
security measures--largely due to visa-free travel to the United States 
and ease of travel throughout Europe. Without knowing who these 
individuals are, it will be impossible for the United States to 
adequately screen and vet them to ensure they are not permitted to 
travel to the homeland.
    How does the Department work with our European allies to identify 
returning foreign fighters?
    Question 5b. Is there additional information that could be shared 
that would bolster your screening and vetting efforts?
    Question 5c. If so, why are they not sharing it (lack of 
capabilities, unwillingness, etc.)?
    Question 5d. How does the Department leverage international 
organizations, such as INTERPOL, to enhance your screening and vetting 
capabilities?
    Answer. The Department maintains close cooperation with European 
allies to combat terrorism, including the threat posed by returning 
foreign terrorist fighters (FTF). Our countries share information on 
FTFs through formal arrangements (such as Homeland Security 
Presidential Directive-6 (HSPD-6)) and through informal intelligence 
and law enforcement channels, as well as through international 
organizations, such as INTERPOL. This sharing enhances U.S. holdings, 
which enables the United States to identify foreign terrorist fighters 
more effectively and take appropriate action to safeguard the United 
States.
    The U.S. Government conducts extensive vetting of foreign 
travelers. All individuals seeking to travel directly to the United 
States from Europe are known to the Department prior to their departure 
because of either the submission of an Electronic System for Travel 
Authorization (ESTA) for travel under the Visa Waiver Program (VWP) or 
a visa application, as well as the receipt of pre-departure passenger 
data required from all airlines and ships bound for the United States. 
The Department extensively vets this data to determine whether the 
prospective traveler should receive additional physical screening, be 
denied boarding or, ultimately, denied admission to the United States.
    Most European allies participate in the VWP. Since 1986, the VWP 
has evolved from a travel facilitation program into a comprehensive 
security partnership between the United States and the individual VWP 
countries. VWP countries must meet stringent security requirements to 
ensure their designation does not pose a risk to U.S. National 
security, law enforcement, or immigration enforcement interests. These 
requirements include implementing a series of arrangements to share 
terrorism information, cooperate on criminal threats, and improve 
identity management relating to and reporting lost and stolen passport 
information. In 2015 and 2016, the Department implemented additional 
security enhancements to the VWP, requiring participants to collect and 
analyze passenger data (Advance Passenger Information and Passenger 
Name Records), screening travelers at borders against National and 
international databases, cooperation with the United States on refugee/
migrant vetting, allowing U.S. Federal Air Marshals on U.S.-bound 
flights, and implementing additional identity document security 
provisions. DHS conducts evaluations of each VWP country at least once 
every 2 years and engages in on-going monitoring between formal 
evaluations to assess participants' counterterrorism, law enforcement, 
immigration enforcement, border management, and identity document 
security capabilities. European partner countries and the European 
Union have taken significant steps to improve counterterrorism and 
border security capabilities in Europe over the past year, to include: 
Enhancing border controls to require systematic database checks of all 
persons crossing Europe's external Schengen borders (effective April 
2017); passing the E.U. Passenger Name Record (PNR) Directive in April 
2016 (to be implemented by May 2018); creating a new European Border 
and Coast Guard Agency (effective October 2016); and improving vetting 
programs through greater database interoperability. European partners 
have also established the European Counterterrorism Centre (ECTC) at 
Europol in January 2016, which functions as a central hub for E.U. 
member states to share terrorism-related information.
    The Department continuously looks for new ways to build on existing 
partnerships with European allies to respond to current and emerging 
threats. For example, the Department has offered its expertise and 
technical assistance to assist European partners in developing air 
passenger data collection and analysis capabilities, and has conducted 
numerous workshops sharing best practices and collaborating on travel 
trends and passenger targeting. The Department is also working with a 
number of European partners to leverage both existing and new 
information-sharing agreements to cooperate directly on vetting 
priority travelers against our respective immigration, law enforcement, 
and National security data at a system-to-system level. In addition, 
the Department is working with nine European countries to establish 
Preclearance facilities at last-point-of-departure airports. Countries 
participating in a Preclearance arrangement adopt a close and 
continuous partnership with the Department that allows the United 
States to leverage its full authorities and capabilities prior to 
departure. Pursuing these initiatives requires the Department and the 
prospective partner to address a number of challenging legal, policy, 
operational, and resource issues.
    Multilateral partnerships, such as INTERPOL and EUROPOL, facilitate 
U.S.-European cooperation. INTERPOL provides an efficient and 
accessible way for U.S. and European partners to share information on 
lost and stolen passports, as well as foreign terrorist fighters and 
criminals, thereby enhancing countries' own screening. Moreover, it is 
a requirement for VWP countries to report to INTERPOL lost and stolen 
passport information and foreign terrorist fighter data. The United 
States leverages these data sets in its screening and vetting programs. 
Following the terrorist attacks in Paris in 2015 and Brussels in 2016, 
DHS worked closely with EUROPOL to share terrorist-related information 
and provide investigatory support. The Department has assigned officers 
to EUROPOL, and to its ECTC, to facilitate the exchange of information 
with European counterparts and to enhance cooperation on investigations 
of terrorist and criminal networks.
    Question 6a. How does U.S. Citizenship and Immigration Services' 
(USCIS) Fraud Detection and National Security Directorate screen 
immigration benefit applications for National security concerns?
    Answer. USCIS conducts background and security checks against law 
enforcement, intelligence, and other databases and other sources of 
information. When information indicates a potential National security 
or fraud or public safety concern, adjudicators refer the case to the 
Fraud Detection and National Security (FDNS) Directorate for further 
vetting.
    FDNS Immigration Officers evaluate National security, public 
safety, and fraud referrals and determine what additional vetting may 
be necessary to obtain a complete understanding of the concern. FDNS 
officers possess a range of tools for researching concerns, including 
access to additional databases and the ability to conduct a site visit, 
and work with counterparts in adjudications to determine the impact of 
a concern on eligibility for the immigration benefit request. As part 
of the vetting process, FDNS officers also seek and share information 
with law enforcement agencies and other U.S. Government partners as 
appropriate.
    Question 6b. How can USCIS improve its document fraud detection and 
overseas verification procedures?
    Answer. USCIS continually strives to update and improve its 
fraudulent document training for immigration officers and adjudicators. 
They receive fraudulent document training during basic training at the 
Federal Law Enforcement Training Center. In subsequent courses, 
immigration officers and adjudicators receive fraudulent document 
training from USCIS staff assigned to ICE's Homeland Security 
Investigations Forensic Laboratory. Additional training is offered via 
in-person instruction, on-line instruction, and self-study materials. 
USCIS also continues to expand collaboration with the Department of 
State to meet overseas verification needs.
    Question 7a. The Homeland Security Act of 2002 gave the Secretary 
of Homeland Security authority to assign DHS employees to diplomatic 
and consular posts to provide expert advice and training to consular 
officers regarding specific security threats relating to the 
adjudication of individual visa applications or classes of 
applications. Today, ICE agents conduct this mission under the Visa 
Security Program (VSP), which has been successful at providing 
increased information and recommendations to Consular officers 
regarding visa applicants and potential travelers to the United States.
    With the growing threat of foreign fighters traveling to the United 
States, how does having ICE agents stationed abroad in Visa Security 
Units (VSUs) add to the security of the homeland?
    Answer. In addition to these written responses, U.S. Immigration 
and Customs Enforcement (ICE) would welcome the opportunity to provide 
a briefing regarding further information on the programs outlined below 
in a closed forum with additional law enforcement and/or intelligence 
sensitive details.
    ICE, through the Visa Security Program (VSP), deploys special 
agents to visa-issuing posts world-wide to utilize available 
investigative resources and apply ICE's broad law enforcement 
authorities to the visa process. Deployed special agents 
responsibilities include, but are not limited to:
  <bullet> investigating suspect visa applicants;
  <bullet> conducting comprehensive visa applicant interviews;
  <bullet> conducting further interviews as part of broader criminal 
        investigations;
  <bullet> collaborating with Department of State consular officers; 
        and
  <bullet> directly coordinating with other law enforcement, 
        intelligence, and host government entities.
    These capabilities make VSP unique among screening efforts in that 
it does not simply recommend the denial of travel; instead, ICE special 
agents investigate and exploit suspect travelers in an effort to 
identify unknown threats and potential violations of criminal law. 
Further, deployed special agents gather and receive threat information 
from host governments on potential terror threat networks and foreign 
fighter information. These efforts enable ICE Visa Security Units 
(VSUs) to build an understanding of transnational terrorist and 
criminal networks, and broadly share and document that information with 
other U.S. Government entities and indices to proactively combat 
terrorist and criminal travel networks.
    Question 7b. How do ICE attaches at Embassies and Consulates where 
there is not a VSU assist with the screening and vetting visa 
applicants?
    Answer. ICE believes in a whole-of-Government effort to promote 
increased visa security. ICE attaches engage and support the various 
consular offices within their operational responsibility to support the 
interagency screening enterprise.
    They share threat information, and, in coordination with Diplomatic 
Security, provide investigative support related to identified 
violations within ICE's authorities. Further, all ICE special agents 
are trained in immigration law, to include visa ineligibilities, and 
support case-by-case requests made by consular officers to facilitate 
Department of Homeland Security vetting efforts on applicants 
identified by consular officers as warranting increased scrutiny. At 
specified VSP posts, ICE screens 100 percent of all non-immigrant visa 
applications prior to visa adjudication and dedicates a special 
agent(s) to support visa security efforts.
    Question 7c. Given the limited resources available, how does ICE 
decide which overseas posts warrant the stationing of a VSU?
    Answer. In fiscal year 2016, ICE expanded VSP operations to an 
additional 5 visa-issuing posts in 5 countries. As a result, the ICE 
VSP now screens 30 visa-issuing posts in 25 countries. In fiscal year 
2017, ICE will expand operations to two additional posts. ICE is 
committed to the aggressive expansion of VSP operations, maximizing 
available resources domestically and internationally to enhance the 
screening, vetting, and investigative efforts.
    To guide expansion efforts, ICE utilizes a site selection process 
to determine high-risk and strategically important posts for expansion. 
The site selection process encompasses a three-part process: (1) A 
risk-based post evaluation; (2) an assessment of each post's expansion 
capabilities; and (3) an analysis of intelligence current threat 
reporting. The first part of the process uses a myriad of Government 
and publically-available data sources to evaluate the risk to mission 
posed by each visa-issuing post. The second and third parts of the 
process consider a number of factors to further determine the 
accessibility of a post, as well as the operational value of 
deployment. Some of these factors include regional need, post support, 
and operational capabilities in country to ensure deployment to posts 
that would be most effective and valuable to the VSP mission. ICE will 
continue to evaluate the criteria used to update and improve site 
selection process. ICE would welcome the opportunity to further brief 
the site selection process in a closed forum with additional law 
enforcement or intelligence sensitive details.
    Question 7d. Are there any specific regions where VSU presence is 
not significant enough given the threat?
    Answer. ICE is committed to the aggressive expansion of VSP 
operations, as resources allow, addressing identified threats. As part 
of the site selection process, ICE assesses regional need when 
considering deployment to ensure geographic placement of VSP operations 
benefits the global Department of Homeland Security mission and whole-
of-Government effort to prevent terrorist travel. Going forward, ICE 
will continue to conduct an annual site selection process to identify 
geographic areas requiring placement of VSP operations in accordance 
with available resources.
      Questions From Chairman Mike Gallagher for Edward Ramotowski
    Question 1. Foreign fighters are currently in and leaving conflict 
theaters where the Department does not have a presence on the ground.
    Generally speaking, how does the Department work with other 
agencies that may have an in-theater presence (i.e. DOD and the IC) to 
incorporate information collected in theater into the screening and 
vetting process?
    Answer. Response was not received at the time of publication.
    Question 2a. A major lesson from 9/11 was the importance of 
interagency intelligence sharing. While we had derogatory information 
on some of the attackers, it did not make it into the hands of those 
who could have prevented their entry into the United States.
    How has the Department improved their ability to move derogatory 
information around the USG in a way that effectively identifies and 
interdicts known or suspected terrorists?
    Question 2b. How confident is the Department that the changes are 
tough enough to prevent any known or suspected terrorist from gaining 
entry? What gaps still exist, if any?
    Answer. Response was not received at the time of publication.
    Question 3a. Mr. Ramotowski, you testified that since 2001 there 
have been nearly 11,000 visas potentially revoked after information 
emerged, post-issuance, suggesting possible links to terrorism.
    How many of these 11,000 individuals were subsequently removed from 
the United States after their visas were revoked?
    Question 3b. How quickly did the removal occur?
    Answer. Response was not received at the time of publication.
    Question 4a. Partnerships with our European allies will be 
absolutely crucial in identifying potential foreign fighters returning 
to their home countries as part of a ``terrorist diaspora.'' These 
Western foreign fighters are certainly a threat as they may more easily 
circumvent security measures--largely due to visa-free travel to the 
United States and ease of travel throughout Europe. Without knowing who 
these individuals are, it will be impossible for the United States to 
adequately screen and vet them to ensure they are not permitted to 
travel to the homeland.
    How does the Department work with our European allies to identify 
returning foreign fighters?
    Question 4b. Is there additional information that could be shared 
that would bolster your screening and vetting efforts?
    Question 4c. If so, why are they not sharing it (lack of 
capabilities, unwillingness, etc.)?
    Question 4d. How does the Department leverage international 
organizations, such as INTERPOL, to enhance your screening and vetting 
capabilities?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
